Report No. DODIG-2012-109                      July 9, 2012




               Special Plans and Operations



   Assessment of U.S. Government and Coalition Efforts
           to Develop the Afghan Local Police
      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Our mission is to to provide assessment oversight that facilitates
                                                                                                                     informed, timely decision-making by senior leaders of the DoD and
                                                                                                                     the U.S. Congress, addressing priority national security objectives.
      Vision
         One professional team strengthening the integrity, efficiency, 

                   and effectiveness of the Department of Defense 
                                                  General Information
                               programs and operations. 

                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department 
                                                               Deputy Inspector General for Special Plans & Operations
                                                                                                                                                Department of Defense Inspector General
             of Defense personnel, programs and operations to support the 

                                                                                                                                                           400 Army Navy Drive
                  Department's mission and serve the public interest.

                                                                                                                                                        Arlington, VA 22202-4704




                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in
improvements to the Department. DoD IG provides guidance and recommendations to the Department of
Defense and the Congress.
                                                                                                                       hot line                              make a difference
                                                                                                                                                                 800.424.9098
                                                                                                                                                                                 Report                        www.dodig.mil/hotline
                                                                                                                                                                                 Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                 Suspected Threats to Homeland Security
                                                                                                                       Defense Hotline,The Pentagon, Washington, DC 20301-1900   Unauthorized Disclosures of Classified Information
                                   INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500




                                                                                     July 9, 2012

MEMORANDUM FOR SECRETARY OF DEFENSE
               DEPUTY SECRETARY, DEPARTMENT OF DEFENSE
               COMMANDER, INTERNATIONAL SECURITY ASSISTANCE
                FORCE/UNITED STATES FORCES-AFGHANISTAN
               COMMANDER, INTERNATIONAL SECURITY ASSISTANCE
                FORCE JOINT COMMAND
               COMMANDER, NORTH ATLANTIC TREATY ORGANIZATION
                TRAINING MISSION-AFGHANISTAN/COMBINED SECURITY
                TRANSITION COMMAND-AFGHANISTAN
               COMMANDER, COMBINED FORCES SPECIAL OPERATIONS
                COMPONENT COMMAND-AFGHANISTAN

SUBJECT: Assessment of U.S. Government and Coalition Efforts to Develop the Afghan Local
         Police (Report No. DODIG-2012-109)

     We are providing this final report for review and comment. This is a continuation of a series
of reports published by the Office of Inspector General’s Special Plans and Operations
Directorate that focus on the train and equip missions in Iraq, Afghanistan, and Pakistan. We
considered client comments on a draft of this report when preparing the final report.

    We request additional comments and information by August 9, 2012, as follows:

      Commander, International Security Assistance Force-Recommendations 1, 3.a.

      Commander, International Security Assistance Force Joint Command-Recommendations
       8.b, 10.b, 14.a.

      Commander, NATO Training Mission-Afghanistan/Combined Security Transition
       Command-Afghanistan-Recommendations 4, 9.c, 14.b.

      Commander, Combined Forces Special Operations Component Command-Afghanistan-
       Recommendation 13.b.

     Copies of your comments must have the actual signature of the authorizing official for your
organization. We are unable to accept the / Signed / symbol in place of the actual signature. If
you arrange to send classified documents electronically, they must be sent over the SECRET
Internet Protocol Router Network (SIPR).
                      Executive Summary–Assessment of
                      U.S. Government and Coalition Efforts
                      to Develop the Afghan Local Police

Who Should Read This Report?
Personnel within the Office of the Secretary of Defense, the Joint Staff, the U.S. Central
Command (USCENTCOM) and its subordinate commands in Afghanistan, the Military
Departments, and Agencies responsible for and engaged in mentoring, partnering, training,
equipping, and other aspects of the development of the Afghan Local Police (ALP) should read
this report.

Background
The Coalition Forces Special Operations Component Command-Afghanistan (CFSOCC-A), the
International Security Assistance Force (ISAF) Joint Command (IJC), and North Atlantic Treaty
Organization Training Mission-Afghanistan/Combined Security Transition Command-
Afghanistan (NTM-A/CSTC-A), in coordination with the Ministry of Interior (MoI) and Afghan
National Police (ANP), have committed to the development of an ALP force. The ALP consists
of personnel recruited, trained, and assigned to provide village level security.1 This entails
significant shared responsibilities and capabilities on the part of the Coalition forces.
CFSOCC-A is the Executive Agent responsible for planning and execution of the ALP program.
IJC is responsible for coordination with CFSOCC-A and general support of the program and the
ALP units operating in IJC battle space. NTM-A/CSTC-A has the responsibility for managing
the use of U.S.C. Title 10 fiscal resources for equipping the ALP, and for building the capacity
of the MoI in support of the ANP and ALP. ISAF has the overarching responsibility to plan,
direct, and integrate the contributions of these three commands in support of ALP development.

Established by President Karzai under the Afghan MoI in August 2010, the ALP program is a
complementary component of the Village Stability Operations (VSO) program.2 Although not
all VSO sites have ALP units, all ALP units are part of an existing VSO site. A primary goal of
VSO and the supporting ALP program is to enhance security, governance, and development, and
link local villages to the Government of the Islamic Republic of Afghanistan (GIRoA) via the
districts and provinces. Generally, ALP sites are located outside of the ISAF-designated Key
Terrain Districts (KTDs). The ALP program was designed to provide protection and stability in

1
  For purposes of this report, village level security refers to the security provided within the village and the terrain
in the near vicinity of the village. Within this area, the village ALP unit has the authority to detain personnel, but
not arrest.
2
   VSO is a bottom-up counterinsurgency (COIN) initiative that establishes security areas around rural villages to
promote local governance and development. Each VSO consists of a 12-man team that embeds in a village and
regularly engages local Afghans, enabling a level of situational awareness and trust otherwise unattainable. VSO
teams are supported by a Village Stability Platform (VSP), which includes a range of enablers and supporting
elements, as well as a focus on linking the district and provincial levels of governance and development to the
national government. Further, Provincial Augmentation Teams and District Augmentation Teams, in partnership
with Provincial Reconstruction Teams, help VSPs to build local governance and improve development.” DoD
“Report on Progress Toward Security and Stability in Afghanistan,” October 2011, p. 67.

                                                            i
villages/areas where the Afghan National Security Forces (ANSF) were insufficiently strong to
prevent armed insurgent infiltration and activities. Improved security was viewed as critical to
the development of rural areas and extending the legitimacy and reach of GIRoA. The ALP
initiative is considered by the Coalition as a cornerstone of a successful counterinsurgency
(COIN) strategy.

The MoI had approved 99 districts for ALP units as of April 2012. Of these, 59 districts had
completed the required MoI validation process, which includes approval by both the village
elders/shura and the Coalition partners, and collectively represented a force of about 12,900
ALP. In coordination with ISAF, the Afghan government has authorized an ALP end-strength of
approximately 30,000 personnel.

Notable Progress
Although much work remains to be accomplished, and there have been isolated setbacks, several
noteworthy areas of progress were identified by the assessment team, discussed in detail in Part
I. These areas included:

      success operating in difficult areas,
      partnering with Afghan National Army Special Operations Forces,
      use of Afghan District Judges and Prosecutors,
      effectiveness of the COIN Advisory and Assistance Team, and
      repeat rotations of U.S. Special Operations Forces Teams.

Challenges—Areas of Concern

Planning
Given the early successes of the ALP program, ISAF had begun to consider establishment of an
enduring program, vice the current GIRoA/MoI planning perspective for a two to five year
effort. ISAF, some district leaders, and village elders believed that the ALP initiative has been
effective in expelling insurgents from the district/village levels and preventing them from
returning. In addition, from ISAF’s perspective, the ALP program is relatively inexpensive,
compared to funding additional full-time ANP over the long-term. However, GIRoA/MoI
leaders were ambivalent regarding the future of ALP beyond two to five years and this has led to
uncertainty within the Coalition, MoI, and the ANP as ISAF staff and leadership consider the
merits of either approach. No ISAF plan for making ALP an enduring program had been
presented yet to the MoI. A belated decision by ISAF and/or GIRoA/MoI on the “enduring or
not” issue could diminish the current effectiveness of the program and result in inefficiency and
wasted resources, or failure to provide for an enduring ALP role and realize its security benefits.

Because there were insufficient Coalition Special Operations Forces (SOF) teams to deploy to all
of the planned ALP sites, two battalions of U.S. conventional forces were tasked to support the
VSO mission and ALP. However, SOF teams are more comprehensively trained and
experienced in conducting all aspects of the VSO mission than are conventional forces,
particularly related to strengthening governance and development. As a result, VSO sites with
Coalition SOF partners make earlier/more progress in governance and development than those
sites partnered only with U.S. conventional forces.




                                                 ii
Furthermore, the available U.S. SOF teams and the two committed conventional infantry
battalions were fully engaged with embedding/training at the 59 ALP sites validated by the
Coalition and the MoI as of April 2012, involving about 12,900 ALP personnel. The MoI-
approved expansion of the ALP program over the next year to approximately 99 sites, to include
an increase up to approximately 30,000 ALP personnel, could quickly outpace current and
proposed Coalition forces available to support the program. A lack of sufficient Coalition
support forces would put the ALP program expansion at risk.

Numerous Afghan officials, including Provincial Governors (PGOVs), Provincial Chiefs of
Police (PCoPs), District Governors (DGOVs), District Chiefs of Police (DCoPs), and some
village leaders did not understand, or were not following, the MoI objectives for the ALP
program, which essentially provide for a village-oriented local security force, not a new police
capability to be deployed by them elsewhere in the district/province. No Afghan civil
government or MoI/ANP information program was evident to educate Afghan government
leaders, including those in local communities, regarding the purpose/intent/concept of
employment of the ALP. There have been instances of misperception and improper
implementation and utilization of the ALP. This was due to the failure to enact a proactive and
effective Information Operations (IO) strategy to support ALP implementation. If the decision is
made to maintain the ALP program, this failure will threaten its effectiveness and ultimate
sustainability.

At the time of their initial fielding, ALP units were commonly issued AK-47s, which are
ineffective in responding to insurgents armed with heavier, longer-range weapons that attack
from beyond AK-47 range. Without heavier weapons, such as the Pulemyot Kalashnikova
Machine Guns (PKMs)3 and rocket-propelled grenades (RPGs), ALP units may be unable to
prevent insurgent infiltration and could incur additional casualties that would be demoralizing
and undermine the development of ALP units’ capability to perform their mission.

Execution
Communication and coordination between ISAF, CFSOCC-A and NTM-A/CSTC-A regarding
implementation of the ALP program has not always been effective. This has created confusion
and disruption at the district and village ALP levels, most notably in the areas of logistics and
pay. It has also hampered visibility of MoI payment records necessary to enable CFSOCC-A,
the Executive Agent, to manage the program and reconcile financial and personnel discrepancies
at the district level.

A significant percentage of ALP candidates had not been in-processed in a timely manner by the
MoI. As a result, ALP personnel were graduating from training and being assigned as ALP
members without all of their administrative requirements complete. Consequently, MoI did not
officially recognize or fund these ALP members for pay and benefits. In these instances, the
Coalition temporarily provided pay and benefits with Afghan Security Forces Fund (ASFF)
monies available to the onsite Coalition partners. However, in these instances, the intended link
between the village ALP to the MoI and GiRoA, which the payment process was designed to
fortify, was not occurring.


3
   PKM is the Cyrillic acronym for a Russian-made Pulemyot Kalashnikova Machine Gun. The PKM is a light, belt-
fed machine gun designed to be carried and/or employed by one person. It is a small arms weapon that fires a round
slightly different from the AK-47. An AK-47 round is 7.62x39mm diameter and a PKM round is 7.62x54mm
diameter. The PKM has a greater range than the AK-47.

                                                       iii
The MoI logistics system did not provide timely support to the ALP program. Specifically, it did
not provide ALP units with authorized equipment upon completion of their ALP training,
provide for timely re-supply of fuel and ammunition or other critical items of supplies, such as
winter uniforms. Coalition partners and ALP commanders reported that authorized equipment,
including vehicles, weapons, ammunition, uniforms, and communication gear, often did not
reach ALP units because it was withheld or diverted by an individual PGOV/PCoP or DGOV/
DCoP. As a result, ALP units did not always have their authorized and necessary equipment and
supplies when needed, adversely affecting operational deployment, readiness, and personal
safety, when they did not have weapons for self-defense.

NTM-A/CSTC-A could account for Afghan Security Forces Fund (ASFF) transferred to the MoI
for payment of the ALP. Furthermore,
ALP payroll processes utilized by
Coalition partners to provide oversight of
funds drawn from the Commander’s
Emergency Relief Program (CERP) and
ASFF appeared to be effective.
However, when MoI assumed direct
responsibility for paying ALP units,
there were problems associated with
internal processing procedures and
timeliness. Lack of transparency and
coordination with Coalition ALP
program advisors and partners could
have negative consequences.
                                                  Figure 1. A Village Stability Operation Site
While cash payment by a trusted agent
at the district level was the approved
MOI method for paying ALP personnel,
in a few districts, they were paid directly from MoI via Electronic Funds Transfer (EFT). Aside
from defeating the intent of the payment system to connect the ALP program to the MoI, use of
EFT vice trusted agent payments further negated district command and control of ALP, and
caused confusion among U.S. SOF partners and the DCoP at that location. This could have
resulted potentially in duplicate payments. Moreover, according to at least one PCoP and his
Coalition partners, the use of EFT by MoI appeared to be paying a significant percentage of
“ghost ALP,”4 a corrupt practice.

MoI policy and implementing guidance was insufficiently defined regarding roles,
responsibilities, and authority of PCoPs and DCoPs over the ALP program. This caused
individual PCoPs and DCoPs to support the ALP program according to their individual
interpretation of its purpose, thereby leading to inconsistent and even ineffective implementation
of the program across the provinces and districts where ALP units were established. Lack of
unity in the ALP effort could complicate plans to expand the program to 30,000 personnel at
approximately 99 sites throughout the country.




4
  A “ghost” employee is a real or fictional name listed for pay and other purposes but not associated with an actual
person.

                                                         iv
Former Afghan Public Protection Program (AP3)5 personnel in at least one province were being
“re-branded” at the provincial level as ALP and assigned against ALP district Tashkils6, but
without the knowledge/approval of district Afghan Uniformed Police (AUP) leaders, village
elders, or U.S. SOF personnel. This resulted in police personnel from one district or village
within a province claiming to be ALP and performing security-related duties in another district
or village, in violation of the intent and procedures of the ALP program. Moreover, the
rebranded ALP were not trusted by the local elders and villagers and encumbered district ALP
Tashkil authorizations.

Recommendations Table
    Office of Primary                    Recommendations                         No Additional Comments
    Responsibility                       Requiring Additional                    Required at This Time
                                         Comment/Information
    Commander, ISAF                      1, 3.a                                  2, 3.b, 6.e
    Commander, ISAF Joint
                                         8.b, 10.b, 14.a
    Command
                                                                                 6.a, 6.b, 6.c, 6.d, 9.a, 9.b,
    Commander, NTM-A/CSTC-A 4, 9.c, 14.b                                         10.a, 11.a, 11.b(1.), 11.b(2.),
                                                                                 12, 13.a
    Commander, U.S. Forces-
                                                                                 3.c
    Afghanistan
 Commander, Combined Forces
 Special Operations Component 13.b                                               5, 7, 8.a, 9.d
 Command-Afghanistan
Please provide comments by August 9, 2012.




5
  AP3 was a MoI security program that preceded the ALP program, supported and equipped by ISAF. However,
AP3 personnel were not approved/vetted by village elders/shuras and did not provide security at the village level.
They often worked outside of their home districts, performing missions such as route and site security.
6
  The Afghan document that authorizes personnel and equipment for an organization—similar to a U.S. Modified
Table of Organization and Equipment (MTOE).

                                                         v
Table of Contents
EXECUTIVE SUMMARY ............................................................................................................. I
INTRODUCTION .......................................................................................................................... 1
    Background ................................................................................................................................ 1
    Public Laws ................................................................................................................................ 1
    Objectives ................................................................................................................................... 1
  Afghan Local Police Program………………………………………………………………….2
  Report Organization…………………………………………………...….……………………3
PART I – NOTABLE PROGRESS ………………………………………………………………5
PART II –PLANNING………………………..…………………………………………………..9
    Observation 1. Afghan Local Police—Temporary or Enduring…..............................................11
    Observation 2. Coalition Support for the Expanding Afghan Local Police Program .….……15
    Observation 3. Village Stability Operations and the Afghan Local Police Program ………..19
    Observation 4: Staffing of the Ministry of Interior Afghan Local Police Headquarters ……23
    Observation 5. Information Operations Program for the Afghan Local Police ...…………….27
    Observation 6. Heavy Weapons for the Afghan Local Police……………………………….31
PART III – EXECUTION ............................................................................................................ 37
    Observation 7. Communication Issues .................................................................................... 39
    Observation 8. Afghan Local Police In-Processing by Ministry of Interior and the
    Provincial Recruiting Officer ................................................................................................... 43
    Observation 9. Afghan Local Police Logistics Support .......................................................... 47
    Observation 10. Withholding, Diversion, and Delay of Afghan Local Police Equipment                                                          53
    Observation 11. Afghan Local Police Payroll—Fund Accountability..................................... 57
    Observation 12. Afghan Local Police and the Electronic Fund Transfer Pay System ........... 61
    Observation 13. Ministry of Interior Afghan Local Police Policy/Guidance………………….65
    Observation 14. Former Afghan Public Protection Program personnel………………………..71
APPENDIX A. SCOPE, METHODOLOGY, AND ACRONYMS ............................................ 75
APPENDIX B. SUMMARY OF PRIOR COVERAGE .............................................................. 79
APPENDIX C. CRITERIA—GOVERNMENT OF THE ISLAMIC REPUBLIC OF
AFGHANISTAN/U.S. POLICY AND MOI/DOD POLICY ....................................................... 83
APPENDIX D. ORGANIZATIONS CONTACTED AND VISITED ........................................ 87
APPENDIX E. MANAGEMENT COMMENTS ....................................................................... 89
APPENDIX F. REPORT DISTRIBUTION .............................................................................. 121
Introduction
Background
This is a continuation of a series of Congressionally mandated, command requested, and/or self-
generated reports published by the Office of Inspector General’s Special Plans and Operations
Directorate that focus on the train and equip missions in Iraq, Afghanistan, and Pakistan.
General areas discussed in these reports include:

      Accountability of weapons transferred to the Iraqi and Afghan Security Forces,
      Accountability of night vision devices transferred to the Iraqi Security Forces,
      Effectiveness/responsiveness of the Foreign Military Sales system in support of the Iraqi
       and Afghan Security Forces,
      Logistics development of the Iraqi and Afghan Security Forces,
      Effectiveness of U.S. and Coalition efforts to develop the Iraqi and Afghan Security
       Forces, and
      Review of the Coalition Support Fund Program and other DoD security
       assistance/cooperation programs with Pakistan.

Previous reports on these subjects may be viewed at http://www.dodig.mil/spo/reports/html.

Public Laws
Congress appropriated $48.34 billion to the Afghanistan Security Forces Fund (ASFF) in Public
Laws 109-13, 109-234, 109-289, 110-28, 110-161, 110-252, 111-32, 111-118, 112-10, and
112-74. These Public Laws define the “train and equip” mission performed in Afghanistan. The
laws specify use of the funds in support of the security forces of Afghanistan.

Objectives
On August 15, 2011, the DoDIG announced the “Assessment of U.S. Government and Coalition
Efforts to Develop the Afghan Local Police,” (Project No. D2011-D00SPO-0277-000). The
objectives of this assessment were to determine whether:

      Planning and operational implementation efforts by U.S./Coalition Forces to recruit,
       train, advise and assist in the development of the Afghan Local Police (ALP) was
       effective. This included evaluating output/outcome at ALP locations at various stages of
       their life cycle to determine the effectiveness of U.S./Coalition involvement in
       developing the ALP and Ministry of Interior (MoI) capability to manage the program.

      Plans, training, preparation and designated missions of the International Security
       Assistance Force (ISAF)/United States Forces-Afghanistan (USFOR-A), North Atlantic
       Treaty Organization (NATO) Training Mission-Afghanistan (NTM-A)/Combined
       Security Transition Command-Afghanistan (CSTC-A), ISAF Joint Command (IJC), and
       Coalition Forces Special Operations Component Command-Afghanistan (CFSOCC-A) to
       train, advise and assist in the development of the ALP are integrated across all levels of




                                               1
        U.S./Coalition commands/staffs, as well as between Coalition commands and the
        MoI/Afghan National Police (ANP).7

Afghan Local Police Program
President Karzai established the ALP program under the Afghan MoI in August 2010. Its
mission was to provide peace and protection in villages/areas where the presence of the Afghan
National Security Forces (ANSF) were insufficiently strong to prevent armed insurgent
infiltration and activities. Improved security was viewed as critical to the development of rural
areas and extending the legitimacy and reach of the Government of the Islamic Republic of
Afghanistan (GIRoA).

In March 2011, the NTM-A/CSTC-A Commanding General stated the intent of the ALP
program was:

        To develop a force capable of providing basic security oriented around villages and respective
        district centers. The ALP program is intended to be simultaneously implemented in districts
        decided upon by Ministry of Interior (MoI) and International Security Assistance Force (ISAF)
        Joint Command (IJC). The End State is that the Government of the Islamic Republic of
        Afghanistan (GIRoA) establishes a professional ALP force capable of providing basic security
        needs to their respective villages and district centers until such time as ANSF have sufficient
        capacity to secure these areas from one to five years.

The program incorporates previous village-level defensive programs, e.g., the Community
Defense and Local Defense Initiatives, and constitutes the third attempt by ISAF to create local
defense forces. The first initiative, begun in 2007, the Afghan Auxiliary Police (AAP), was
orchestrated by the MoI. The second initiative, which started in early 2009, was the Afghan
Public Protection Program (AP3). The AP3 sought to correct problems associated with the AAP
and was heavily supervised and supported. The AP3 was also run by the Afghan MoI, with
training and equipment being provided by ISAF.

The current initiative, the ALP, adapts the lessons learned from the first two initiatives. It is a
village-focused program, which includes governance and development in the encompassing
districts. The goal is to enhance counterinsurgency (COIN) efforts by enabling rural areas, with
limited or no ANSF presence, to provide for their own local security. Additionally, the MoI,
through provincial/district governments and local shuras8, provides command, control, and
oversight of the ALP with assistance from Coalition Force partners. The Coalition partnering at
the district and village levels is performed primarily by Coalition Special Operations Forces
(SOF) and two U.S. Infantry battalions, in some instances operating with the ALP separately and
in others serving as combined units.

The MoI has approved 99 districts for ALP units as of April 2012. Of these, 59 districts have
completed the required validation process and collectively represent a force of about 12,900
ALP. In coordination with ISAF, the Afghan government has authorized an ALP end-strength of
30,000 personnel.



7
  For purposes of this DoDIG report, the ANP consists of the Afghan Uniformed Police (AUP), the Afghan Border
Police (ABP), the Afghan Civil Order Police (ANCOP), the Afghan Anti-Crime Police, and the Afghan Local Police
(ALP).
8
  For purposes of this DoDIG report, a shura is a meeting of village/district elders/leaders.


                                                        2
Report Organization
This report consists of three separate sections.

      Notable Progress,
      Planning, and
      Execution.




                                                   3
PART I – NOTABLE PROGRESS




            5
Working Towards Transition
An important goal of the ISAF in Afghanistan is to successfully transition security responsibility
to the Government of the Islamic Republic of Afghanistan (GIRoA). Through the efforts and
leadership of ISAF, IJC, and NTM-A/CSTC-A working at all levels of the MoI and ANP,
progress has been made in the area of security. The transfer of lead security responsibilities to
the ANSF has already occurred in selected areas of Afghanistan. The ALP program is a
complementary component of the Village Stability Operations (VSO) program; although not all
VSO sites have ALP units, all ALP units are part of an existing VSO site. A primary goal of
VSO and the supporting ALP program is to enhance security and link local villages to GIRoA
via the district and province, generally outside of the ISAF-designated Key Terrain Districts
(KTDs). Although the ALP program is only about 18 months old, the DoDIG team identified
several indications of progress and best practices within the overall program.

Success in Difficult Areas
Although VSO/ALP progress toward stability and security varies from location to location,
depending on local circumstances, there have been areas of significant and unexpected success.
In one province in Regional Command-East (RC-East) near the Pakistan border, an area outside
of the ISAF-designated KTDs,
GIRoA controls three of the five
districts with Afghan Uniformed
Police (AUP) and about 500 ALP—
in a 1200 square mile area. “You can
ride a bicycle safely up and down
about 80 kilometers of highway,”
according to the Provincial ALP
Police Chief. His Coalition SOF
partner supported this assertion,
noting that this province was
extremely dangerous a year ago—
markets were closed and the locals
were afraid to venture out of their
village, even to attend a funeral. By           Figure 2. Meeting with Village ALP Leaders
November 2011, the local economy
in the districts under GIRoA control was showing signs of growth, even without any significant
development efforts by GIRoA or the Coalition. The local population attributed this success
largely to the ALP presence in their villages. A similar situation was found in some of the
districts in RC-South, where heavy fighting had ended only months before.

Partnering With Afghan National Army Special Operations
Forces
U.S. SOF partnered with Afghan National Army (ANA) SOF (Commandos) elements to help
with clearing the area around villages selected for the ALP program and then to gain the trust of
the local population during the “hold” and “build” portion of VSO. Additionally, the ANA
Commandos support the training of the ALP. In one province, the Commandos support ALP
training and expand the secure area (white space) around the village during the latter weeks of
their own retraining (Amber) cycle. Use of ANA Commando personnel helped to put an
“Afghan face” on the ALP program, furthering the link to GIRoA, along with its credibility.


                                                7
Coalition SOF partners reported that the ANA SOF personnel provided impressive role models
for new ALP personnel and the villagers themselves.

Use of Afghan District Judges and Prosecutors
U.S. SOF personnel at several ASO/ALP sites reported using local Afghan judges and
prosecutors to teach ALP personnel the rule of law and Afghan Constitution portions of the ALP
training Program of Instruction. While U.S. personnel can conduct this training, it is more
effective when coming from fellow Afghans who speak the language and are more apt to know
the particular characteristics and culture in the local area. This further served to build
government credibility.

Counterinsurgency (COIN) Advisory and Assistance Team
The ISAF COIN Advisory and Assistance Team provided direct observations to Commander,
ISAF on strategic priority areas of concern, to include concerning the ALP program. It also
provides “advise and assist” support across the theater in order to maximize the effects of ISAF
campaign efforts. The COIN Advisory and Assistance Team was able to interact and coordinate
with all commands taking part in VSO/ALP operations. This was proving beneficial as it
quickly raised issues regarding ALP/VSO to the highest levels of the Coalition command for
resolution.

Repeat Rotations of U.S. Special Operations Forces Teams
In some instances, U.S. SOF teams returned to the same provinces and districts where they were
assigned and worked on previous deployments. This proved very beneficial, as the U.S.
personnel were already familiar with the terrain, provincial/district GIRoA officials, and many of
the village elders. Generally, the Afghans officials were very receptive to the return of Coalition
personnel they knew and trusted, truncating the normal period required to establish a working
relationship.




                                                 8
PART II – PLANNING




        9
Observation 1. Afghan Local Police—Temporary or
Enduring?
Given the early successes of the ALP program, ISAF has begun to consider establishment of an
enduring program, vice the current GIRoA/MoI perspective of two to five years, as published in
MoI Decree P-3196, dated 16 August 2010. While the ISAF staff and leadership are considering
the merits of either approach to the future use of ALP personnel, they are preparing a plan to
support the “enduring program” approach. However, they have yet to approach the MoI
officially with any proposal.

Many senior GIRoA officials at the MoI and some at the province/district level still maintain that
the ALP program should end in five years, per MoI decree, incorporating the ALP personnel into
the ANP or disbanding them. However, ISAF, some district leaders, and village elders perceive
the ALP as an effective program that can expel insurgents from the district/village levels and
prevent them from returning. In addition, from ISAF’s perspective, the ALP program is
relatively inexpensive, compared to funding additional full-time ANP over the long-term.

This has led to a degree of uncertainty about the future of the ALP program. There are not only
political, social, tactical, and security concerns to be considered and addressed should the ALP
become an enduring program, but near-term U.S. and Coalition resource decisions as well. A
late decision on the “enduring or not” issue could result in inefficiency and wasted resources.

Applicable Criteria (See Appendix C, Numbers 2, 3, 9, 10, 11, 13, 16, 17, 18, 22, 23, and
26, for additional details.)

       Army Field Manual 3-07, “Stability Operations,” October 2008.
       Army Field Manual 3-24/Marine Corps Warfighting Publication 3-33.5,
        “Counterinsurgency,” December 2006.
       DoD Directive 3000.7, “Irregular Warfare (IW),” December 1, 2008.
       DoD Instruction 3000.5, “Stability Operations,” September 16, 2009.
       DoD Instruction 5000.68, “Security Force Assistance (SFA),” October 27, 2010.
       IJC Fragmentary Order (FRAGO) 515-2010, "Establishment of the ALP Program,"
        (undated). (Classified document.)
       ISAF FRAGO 205-2010, "Afghan Local Police," September 16, 2010. (Classified
        document.)
       Joint Publication 3-05, “Special Operations,” April 18, 2011.
     Joint Publication 3-22, “Foreign Internal Defense,” July 12, 2010.
       MoI, Office of the Senior Deputy of Security, Department of the Afghan Local Police,
        “Afghan Local Police Establishment Procedure,” Updated March 2011.
       MoI Order Memo NO: (7158), Receipt#: (7134), “Afghan Local Police Establishment
        Procedure,” August-September 2010.
       USFOR-A FRAGO 10-287, “Guidance for the Afghan Local Police Program," 5
        September 2010. (Classified document.)




                                               11
Discussion
The issue of whether the ALP should be an enduring program vice a temporary one came up
repeatedly during the course of the DoDIG team’s fieldwork. The majority of Coalition and
Afghan officials believe the ALP is currently an effective program because it:

      connects GIRoA to the village level in a way that the ANA or ANP cannot,
      provides an effective and inexpensive security program,
      denies the insurgents access to the local population, as well as safe havens for their
       operations,
      is an essential part of the overall ISAF campaign plan,
      is generally well received at the district and village level,
      provides a potential source of future employment for ANSF personnel that rotate out of
       active forces, and
      maintains pressure on insurgent elements to discontinue their activity.

However, although there was an acknowledgement within ISAF and the MoI/ANP forces of the
near-term need for this program, differences existed regarding the future of the program. The
sentiment among the ISAF staff seemed to lean toward making the ALP program an enduring
part of the ANSF. From the Coalition’s perspective, a particularly attractive aspect of the ALP
program is cost. For example, ALP salaries are only 60 percent of AUP salaries. The ISAF and
CFSOCC-A staff are beginning to develop a plan to support the “enduring program” option.

For their part, most MoI officials and provincial governors see the ALP as a temporary program
that will end in three to five years, as promulgated in the current MoI decree. They are also
cognizant of the issues that have arisen in Afghanistan’s past with armed militias at the local
level that have fallen under the control of a warlord whose objectives and interests run counter to
GIRoA’s. They note that they would rather have full-time AUP personnel providing the security
at the district and village levels, as the AUP are ostensibly linked more closely to the Afghan
central government than the more loosely organized ALP.

Additionally, some GIRoA officials expressed concern about the problems created in
Afghanistan’s past by armed militias at the local level. Some of these militias were controlled by
warlords whose objectives and interests ran counter to GIRoA’s. Those objecting noted that they
would rather have full-time AUP personnel providing the security at the district and village
levels, as the AUP are ostensibly linked more closely to the Afghan central government than the
more loosely organized ALP.

Conversely, there were Afghan district officials and the majority of the village elders who
preferred the ALP presence to the AUP’s. They noted that the ALP personnel are drawn from
their village and are well known in the local area, and thus are more accountable to their elders,
extended family, and peers. They are generally from the same ethnic group as the village they
represent, whereas the AUP are often from a different ethnic group and come from a different
part of Afghanistan. Therefore, most local Afghan elders and officials believed that the ALP
were apt to be less corrupt than the AUP and more inclined to fight for the safety and well-being
of their village and families. They pointed to the improvements in stability, security, and in the
local economy in ALP-secured areas as further evidence of the need for the program to be
maintained over the long-term.




                                                12
The continuing debate among and between Coalition and MoI officials over the future of the
ALP program has caused uncertainty at all levels over how much effort to put into the program
and how far out to plan for support and sustainment. Some Afghan provincial and district
officials cited the temporary nature of the program as justification for diverting resources
planned for the ALP to the AUP. Furthermore, since the Coalition is funding all ANSF salaries
through the MoI, if the ALP program is to endure as a permanent program, resourcing decisions
to support and sustain it need to be made in the near-term.

Recommendation
1. Commander, International Security Assistance Force, within 90 days from publication of
this report, develop a position that addresses the “endurance” of the Afghan Local Police
program and, if that position differs from that of the current Government of the Islamic
Republic of Afghanistan plan, coordinate it with Government of the Islamic Republic of
Afghanistan and the Ministry of Interior.


Management Comments
ISAF concurred, noting that ISAF FRAGO 055-2012, “COMISAF’s Vision and Guidance
on the Future of the Afghan Local Police,” published on April 3, 2012, encourages GIRoA to
codify an enduring ALP program beyond its current mandate of 2015. The order directs the
Deputy Chief of Staff, Operations, to engage GIRoA as soon as possible to that end, with results
by the end of 2012.

Our Response
ISAF comments were responsive. We ask that ISAF provide a copy of ISAF FRAGO 155-2012.




                                               13
Observation 2. Coalition Support for the Expanding Afghan
Local Police Program
The planned expansion of the ALP program will outpace the Coalition partners available to
embed, train, and support them, jeopardizing quality and development of effective GIRoA
control.

As of April 2012, the available U.S. SOF teams and the two committed conventional infantry
battalions were fully engaged with embedding/training at the 59 ALP sites validated by the
Coalition and the MoI. There were about 12,900 ALP personnel assigned to those sites. The
MoI-approved expansion of the ALP program over the next year to approximately 99 sites, to
include an increase up to approximately 30,000 ALP personnel, could quickly outpace current
and proposed Coalition forces available to support the program. Additionally, current ISAF and
IJC headquarters staffing levels are insufficient to support the expanding ALP program.

The lack of sufficient and trained Coalition support forces puts attaining the strength goal and the
objectives of the ALP program at risk.

Applicable Criteria (See Appendix C, Numbers 2, 3, 9, 10,11, 13, 16, 18, 22, 23, and 26,
for additional details.)

       Army Field Manual 3-07, “Stability Operations,” October 2008.
       Army Field Manual 3-24/Marine Corps Warfighting Publication 3-33.5,
        “Counterinsurgency,” December 2006.
       DoD Directive 3000.07, “Irregular Warfare (IW),” December 1, 2008.
       DoD Instruction 3000.05, “Stability Operations,” September 16, 2009.
       DoD Instruction 5000.68, “Security Force Assistance (SFA),” October 27, 2010.
     IJC FRAGO 515-2010, "Establishment of the ALP Program," (undated). (Classified
        document.)
     ISAF FRAGO 205-2010, "Afghan Local Police," September 16, 2010. (Classified
        document.)
     Joint Publication 3-22, “Foreign Internal Defense,” July 12, 2010.
       MoI, Office of the Senior Deputy of Security, Department of the Afghan Local Police,
        “Afghan Local Police Establishment Procedure,” Updated March 2011.
       MoI Order Memo NO: (7158), Receipt#: (7134), “Afghan Local Police Establishment
        Procedure,”August-September 2010.
       USFOR-A FRAGO 10-287, “Guidance for the Afghan Local Police Program," 5
        September 2010. (Classified document.)

Discussion
Currently there are over 80 Coalition SOF teams conducting VSO/ALP operations at about 59
locations across Afghanistan. Two conventional infantry battalions augment the SOF teams, a
process that is generally working well. These Coalition forces have trained about 12,900 ALP
and continue to partner with the ALP in those districts. However, the general opinion of the
Coalition partners and staff involved with the program is that the current allocation of Coalition


                                                15
resources, both in the field and on the IJC and ISAF staff, is insufficient to meet the recent
expansion to over 99 ALP sites and 30,000 ALP.

Once the decision is made to establish a VSO/ALP site, ALP personnel need intensive training
and partnering, if they are to defend their villages and develop an association with GIRoA via the
District Chief of Police (DCoP) and the Provincial Chief of Police (PCoP). The training
appeared to be progressing well at the currently established sites. However, the availability of
Coalition SOF/conventional forces to embed with ALP units in the districts may become a
greater issue with the upcoming drawdown of U.S. and Coalition forces in 2012 and 2013,
compounded by a simultaneous expansion of the ALP program. Although responsible Coalition
staff elements at ISAF, IJC, and CFSOCC-A recognized this disconnect, there was no apparent
ISAF plan to address this shortfall in Coalition trainer/partner resourcing.

The perceived importance and corresponding priority of support for ALP varies widely within
the ISAF command. The ISAF headquarters has two staff officers assigned to support the
program. At the CFSOCC, the ALP program was their top priority, supported with a staff of
two. IJC, the war fighting Command, considered ALP to be of high importance, but supported it
at the headquarters level with only two staff officers. NTM-A/CSTC-A had ALP as priority five
of six and has no dedicated staff in direct support of the program. While we understand that it is
the Commander’s responsibility to prioritize his missions and to allocate scarce resources as he
deems best, it was unclear as to whether staffing support for the ALP program was sufficient to
carry out the ALP mission effectively at IJC and NTM-A/CSTC-A, especially given the pending
expansion of the program.

Failure to resource the expanding ALP program with sufficient staff support and partners could
result in:

       insufficient planning,
       premature reassignment of Coalition training/partner resources, uncovering ALP
        organizations before they are ready,
       lack of oversight,
       Afghan establishment of unilateral ALP sites9, and
       failure of the ALP program to achieve its established goals, putting the overall COIN
        strategy in jeopardy.

Recommendation
2. Commander, International Security Assistance Force, in coordination with International
Security Assistance Force Joint Command, North Atlantic Treaty Organization Training
Mission-Afghanistan/ Combined Security Transition Command-Afghanistan, and Combined
Forces Special Operations Component Command-Afghanistan, develop a plan to allocate
sufficient training/partner and staffing resources to support the expansion goals of the Afghan
Local Police program.


Management Comments

9
  An ALP site approved/established by GIRoA/MoI without coordination with or approval by the Coalition
command. As such, Coalition trainers are not assigned, nor are ASFF monies available to support the unilateral site.


                                                        16
ISAF non-concurred, noting that the recommendation was based, in part, on the statement “The
lack of sufficient and trained Coalition support forces puts attaining the strength goal and the
objectives of the ALP program at risk.” ISAF states that the ALP force has grown by 25 percent
since January 2012, now numbering 13,400 and is on-track to meet the 30,000 goal by the end of
2014 with the resources allocated, as part of the overall ISAF campaign plan.

Our Response
ISAF comments were responsive and we accept their non-concurrence. Evidence indicates
current planning and execution has increased training output and significantly expanded the ALP
program since our field work in October 2011. The program appears to be on-track to meet
strength goals by the end of 2014. However, we will leave this recommendation open and will
ask for an update on ALP strength in 6 months.




                                              17
Observation 3. Village Stability Operations and the Afghan
Local Police Program
VSO is the district level operational context in which the ALP initiative is embedded and upon
which progress is measured in terms of security, governance, and development. Coalition
SOF/U.S. SOF Operational Detachment-Alpha (ODA)10 partners and U.S. conventional force
partners are implementing the security parameter (ALP) of VSO program differently. Coalition
SOF/U.S.SOF ODA team partners implement the governance and development parameters of
VSO early on, in conjunction with security (ALP) development. U.S. conventional force
partners initially focus almost exclusively on security, with governance and development being a
lesser priority, addressed at a later time.

Because there are not enough Coalition SOF/U.S.SOF ODA teams to partner at all of the
planned ALP sites, two battalions of conventional forces were tasked with the VSO mission and
ALP. However, without SOF assistance, conventional forces do not have the training or
experience to conduct VSO properly.

As a result, VSO sites with Coalition SOF/U.S SOF ODA team partners make earlier progress in
governance and development than those sites partnered only with U.S. conventional forces.

Applicable Criteria: (See Appendix C, Numbers 13, 14, 15, and 16, for additional
details.)

          IJC FRAGO 515-2010, “Establishment of the ALP Program,” (undated). (Classified
           document.)
          IJC FRAGO 515.01-2010, Amendment 01 to Headquarters IJC FRAGO 515-2010
           FRAGO, “Establishment of the ALP Program,” December 3, 2010, (Classified
           document).
          ISAF FRAGO 164-2011, “Updated Guidance on ISAF Support to the Afghan Local
           Police Program,” June 7, 2011. (Classified document.)
          ISAF FRAGO 205-2010, “Afghan Local Police,” September 16, 2010. (Classified
           document.)

Discussion
VSO is a Coalition/U.S. COIN methodology designed to enhance security, governance, and
development at the rural district and village level. The ALP program is a GIRoA program,
supported by ISAF, which is designed to provide for the security parameter of VSO, generally in
districts outside of the ISAF-designated KTDs. Per ISAF FRAGO 164-2011, VSO is designed
to help shape, hold, build, and transition rural communities. Some of the aspects of VSO, and
the ALP security parameter, are:

          CFSOCC-A is the Executive Agent for all VSO/ALP activities.
          The ALP program is a sovereign GIRoA program.
          VSO is a Coalition methodology and a critical component of ISAF’s COIN strategy in
           Afghanistan.
          The ALP program is an extension of the broader VSO effort.

10
     Usually a 12-man U.S. SOF team with specialized skills/capabilities.


                                                          19
        VSO and ALP, in conjunction, provide effects in security, development, and governance.
        VSO and ALP, in conjunction, mobilize village populations and extend GIRoA’s
         legitimacy into rural areas.
        CFSOCC-A VSO are required, per ISAF, for all support to ALP programs.

Ideally, VSO methodology starts with a Coalition SOF/U.S. SOF ODA team engaging with the
local villagers and offering them an opportunity for a better future. They work to gain the trust
of the villagers and are ultimately invited to embed and partner with the locals. They enter with
the expectation that they are there to:

        help the villagers stand up to insurgent extremism (security),
        improve the villagers’ lives (development), and
        help them connect with the GIRoA, via the district (governance).

Whereas the Coalition SOF/U.S. SOF ODA teams are trained and experienced in all three
parameters of VSO, U.S. conventional forces are much less prepared for this type of mission,
especially the development and governance parameters. However, even development of the
security parameter via ALP is approached differently. One senior Coalition officer told us that
the SOF approach to establishing the ALP in villages starts with convincing the Afghans they
need a new sheriff, and to then choose one, whereas conventional forces are apt to just introduce
the new sheriff.

CFSOCC-A does not have enough Coalition SOF/U.S. SOF ODA teams to perform VSO at all
of the districts/villages identified for ALP. Two battalions of conventional forces were tasked
with the VSO mission, to include ALP. These conventional battalions were used in two different
methods:

        The conventional battalion was used to augment U.S. SOF ODA teams, allowing the
         ODA team to embed trainers at an additional VSO site.
        The conventional battalion was given sole responsibility for VSO sites, without an SOF
         component.

SOF teams, to include those SOF teams augmented with conventional force personnel, identified
all three parameters of VSO as part of their primary mission. Those sites manned solely by U.S.
conventional forces viewed their primary mission as training and outfitting the ALP (security),
with VSO parameters of governance and development receiving considerably less emphasis.

This difference in approach results from a difference in experience, preparation, and training.
While SOF teams have had extensive training and experience with Security Force Assistance
Programs like VSO and ALP, most conventional forces have not. Personnel in a conventional
battalion with sole responsibility for VSO/ALP in their sector told DoDIG team members they
had not been properly trained for the VSO/ALP mission prior to deployment.
DoDIG coordination with the U.S. Army Special Operations Command determined that they
could not source additional ODAs for the ALP mission in Afghanistan without negatively
affecting other U.S. Special Operations Command priority, worldwide missions or further
reducing dwell time,11 which is already well below Army goals.

11
  A ratio of time an individual service member is deployed compared to time at home station. Home station is
generally, but not always, in the vicinity of the service member’s family.


                                                       20
However, given that there are not enough Coalition SOF /U.S. SOF ODA teams to meet the
requirements of the expanding VSO/ALP program, some use of conventional forces will be
required. The DoDIG team determined the use of conventional forces as an augmentation to
SOF teams was the best approach. VSO sites manned by SOF teams, or SOF teams augmented
with conventional personnel, were progressing toward desired outcomes for all three VSO
parameters at a faster rate than those sites staffed solely by conventional forces.

Recommendations
3. Commander, International Security Assistance Force, in coordination with Combined
Forces Special Operations Component Command-Afghanistan and International Security
Assistance Force Joint Command,

   a. Ensure all Coalition partners involved with Village Stability Operations/Afghan Local
Police programs understand and follow the procedures in International Security Assistance
Force Fragmentary Order 164-2011, dated 7 June 2011 and International Security Assistance
Force Joint Command Fragmentary Order 515.01-2010, (undated).
   b. Develop and implement a course of action that will ensure the Village Stability
Operations methodology is applied uniformly to every district/village with Afghan Local
Police.
3.c. Commander, United States Forces-Afghanistan, in coordination with International
Security Assistance Force Joint Command and Combined Forces Special Operations
Component Command-Afghanistan, ensure that the training requirements for conventional
battalions that will participate as partners in the Afghan Local Police program are identified
and incorporated into pre-deployment training.




                                                21
Management Comments
ISAF concurred with Recommendation 3.a and 3.b. They stated that ISAF FRAGO 055-2012,
“COMISAF’s Vision and Guidance on the future of the Afghan Local Police,” published on
April 3, 2012, directed all involved in the ALP program to ensure unity of effort of all activities
by implementing the program in accordance with previously published orders and directives
from ISAF and IJC. CFSOCC-A, as the Executive Agent for the program, maintains oversight
of the program and works closely with IJC to ensure non-CFSOCC-A partner units involved in
VSO/ALP are aware of ALP directives and “best practices.”

USFOR-A concurred with Recommendation 3.c, noting this recommendation was being
implemented, through USCENTCOM, by incorporating an additional training requirement for
conventional battalions that would participate as partners in the ALP program. They also noted
that conduct of the pre-deployment training would be a U.S. military Service responsibility.
ISAF reported conventional battalions that would be OPCON to CFSOCC-A would receive this
instruction during pre-mission training, specifically through a VSO culmination exercise.
USSOCOM is also conducting a VSO Academic Week—an intensive instructional conference at
which a wide array Afghan subject matter experts explain the tenants and characteristics of VSO
methodology. Aimed at battalion and company level leadership, conventional forces identified
for OPCON to CFSOCC-A are attending or will attend.

Our Response
ISAF comments to Recommendations 3.a and 3.b were responsive. We ask that ISAF provide a
copy of ISAF FRAGO 155-2012.

USFOR-A and ISAF comments to recommendation 3.c. were responsive. No further action is
required.




                                                 22
Observation 4. Staffing of the Ministry of Interior Afghan
Local Police Headquarters
The MoI ALP headquarters will have difficulty meeting its increasing mission responsibilities
due to limitation in number and seniority of staff.

The growing ALP force has increased MoI ALP headquarters requirements to the point that they
now exceed the capabilities of current ALP headquarters personnel authorization. Staff
shortages will constrain the ALP headquarters' ability to perform the multiple roles and functions
important to the development of the ALP Program.

This will impede timely efforts to create an effective village-focused program that enhances
COIN efforts by enabling rural areas, with limited or no ANSF presence, to provide for their own
local security.

Applicable Criteria (See Appendix C, Numbers 22, 23, and 24, for additional details.)

      MoI, Office of the Senior Deputy of Security, Department of the Afghan Local Police,
       “Afghan Local Police Establishment Procedure,” Updated March 2011.
      MoI Order Memo NO: (7158), Receipt#: (7134), “Afghan Local Police Establishment
       Procedure,”August-September 2010.
      NTM-A/CSTC-A “Afghan Local Police (ALP) Ministerial Development Plan,” March
       2011.

Discussion
Although originally expected to be a temporary program of about 10,000 personnel with a short
lifespan of two to five years, the ALP authorization goal has already increased to 30,000, with
ISAF and MoI consideration being given to making it a permanent, enduring program.

In executing its mission, the ALP department within MoI is expected to coordinate and direct the
numerous staff functions required of a major ANSF headquarters, including:

    recruiting,
    manning,
    fielding
    retention, and
    maintaining an approved 30,000-man force throughout Afghanistan.

MoI Order Memo NO: (7158), Receipt#: (7134), “Afghan Local Police Establishment
Procedure,” states in Article 4:

       The ALP department will be established within the Deputy Ministry for Security Affairs that is
       responsible for the ALP’s command and control at provincial and district levels. The Provincial
       Chief of Security, District Chief of Police, and ALP Commanders are responsible for managing
       ALP operations.

These requirements necessitate that the ALP department/headquarters also address and resolve
the numerous issues and concerns presented daily by ALP units, Provincial Governors (PGOVs),


                                                      23
PCoPs, District Governors (DGOVs), DCoPs, and local shuras. Although several of these
functions are performed in conjunction with MoI, the current Tashkil for the ALP Headquarters
of 23 officers and noncommissioned officers did not appear sufficient to effectively manage and
support the current program, let alone the expanding ALP program.




 Figure 3. Personnel Authorization for the ALP Headquarters   Source: NTM-A/CSTC-A, 30 August 2011

The insufficient staffing of the ALP headquarters could significantly inhibit the ability of this
command to provide coordination, assistance, and command and control, jeopardizing the
success of the ALP program.

Recommendation
4. Commander, North Atlantic Treaty Organization Training Mission–Afghanistan/ Combined
Security Transition Command–Afghanistan, in coordination with the Combined Forces Special
Operations Component Command–Afghanistan and the Ministry of Interior, review the
staffing at the Afghan Local Police department/headquarters within the Ministry of Interior
headquarters and develop a plan to provide appropriate personnel resources to that
headquarters.

Management Comments
NTM-A/CSTC-A concurred with Recommendation 4, stating that the MoI ALP Director



                                                 24
developed a new personnel structure and submitted it to MoI leadership. The proposal was
approved by the Minister of Interior and forwarded to the Force Management Directorate for
implementation and inclusion in the SY 1391 Tashkil. The SY 1391 Tashkil will increase the
number of MoI ALP headquarters staff members from 23 to 46.

Our Response
NTM-A/CSTC-A comments were responsive. When the SY 1391 Tashkil is published, we
request a copy of the section documenting the increase of the MoI ALP headquarters staff to 46
personnel.




                                              25
Observation 5. Information Operations Program for the
Afghan Local Police
Numerous Afghan officials, including PGOVs, PCoPs, DGOVs, DCoPs, and some village
leaders did not understand, or were not following, the MoI objectives for the ALP program,
which essentially provide for a village-oriented local security force.

This has occurred because PGOVs, PCoPs, DGOVs, DCoPs, local shuras (informal governance
or community councils) and local ALP leaders have not been properly informed of the intent,
principles, and procedures of the ALP program. We could not identify a GIRoA or MoI/ANP
information program educating Afghan leaders, including those in local communities, regarding
the purpose/intent/concept of employment of the ALP.

Without an effective, proactive Information Operations (IO) program for the ALP, there will
continue to be instances of misperception and improper utilization of the ALP that will hamper
effectiveness and could slow the growth of the program.

Applicable Criteria (See Appendix C, Numbers 22, 23, and 24, for additional details.)

      MoI, Office of the Senior Deputy of Security, Department of the Afghan Local Police,
       “Afghan Local Police Establishment Procedure,” Updated March 2011.
      MoI Order Memo NO: (7158), Receipt#: (7134), “Afghan Local Police Establishment
       Procedure,”August-September 2010.
      NTM-A/CSTC-A “Afghan Local Police (ALP) Ministerial Development Plan,” March
       2011.

Discussion
Once a general level of security has been established by Coalition or Afghan forces, Coalition
SOF/supporting conventional forces, in coordination with MoI/ANP, establish a VSO site in the
district to enhance governance, development, and a further expansion of security/stability. The
ALP program is a subset of the effort to expand security/stability. Once a VSO site is
established, Coalition SOF/conventional force teams introduce the concept of ALP to the village
elders. Although Coalition SOF/conventional force teams are integral parts of the VSO/ALP
process, the emphasis is on getting the MoI to take responsibility for the program through
mentoring, training, and assisting at the PGOV, PCoP, and MoI levels.

Although the ALP program appears to be progressing satisfactorily at the sites visited, there are
misconceptions about the program among Afghan government and police officials, and misuse
of ALP assets at some locations that a better information / education program could prevent.

During the assessment, team members heard numerous MoI officials voice their concern over the
ALP program. MoI officials working together in the same provinces were at odds over the ALP.
Some provincial and district officials were either unaware of or deliberately ignoring the
principles and concept of employment of the ALP program. Examples include:




                                                27
        A DGOV told by the PGOV to “make ALP happen,” with no guidance on principles or
         concept of the program. The DGOV initially thought ALP was a Quick Reaction Force
         for the district AUP.
        A PCoP sent the U.S. SOF team a list of 300 men that he had already chosen for the ALP
         program. None of the 300 had been selected by village elders or vetted by local shuras,
         causing immediate concern at the village level.
        Some senior Afghan leaders have hidden agendas and are employing ALP assets for
         other reasons that do not focus on support to the villages where ALP members live. In
         some districts, ALP members were routinely being used as back up or reinforcements to
         the AUP, outside of their village area - in some cases in other areas of their district and
         even province.
        A DCoP wanted to billet the ALP personnel in the district at the district headquarters so
         he would have better control of them.
        Some Afghan leaders fear the ALP program will produce local militias that could fall
         under the influence of a local warlord, challenging the authority of the AUP.
        A PGOV believed the ALP should be deployable throughout the province, as determined
         by the PGOV or PCoP, regardless of village affiliation.

Additionally, there were instances when non-government organizations reported alleged ALP
corruption and abuse.12 While subsequent investigation substantiated some of the allegations,
the majority were not substantiated. In some cases, while such corruption/abuse had occurred,
the perpetrator was reportedly not a member of the ALP, but someone who, for various reasons,
had hijacked the ALP brand name.13 In a few instances, ALP members were determined to be
                                                     guilty of infractions. When the facts were
                                                     determined, there did not appear to be any
                                                     significant effort by the Coalition, GIRoA,
                                                     or the MoI to counter the erroneous reports
                                                     with investigative facts.

                                                         Villages historically have been so far
                                                         removed from any central Afghan
                                                         government that there is a general mistrust
                                                         of new GIRoA programs at the local level.
                                                         Therefore, it is imperative that GIRoA
                                                         officials at all levels understand and
                                                         implement the ALP program appropriately
                                                         and in a cooperative effort, from MoI down
        Figure 4. A Village Secured by the ALP           to the villages. It is difficult for villagers
                                                         to trust the GIRoA ALP program when
they see their district leadership is at odds with provincial leadership over development, support

and implementation of the program. Along with measures discussed elsewhere in this report, an
effective IO program could facilitate sustainable ALP program development, along with
enforcement of unity of effort and cooperation from MoI through the ANP chain of command. It

12
   Human Right Watch, “Just Don’t Call It a Militia--Impunity, Militias, and the “Afghan Local Police,” September
2011, p. 6.
13
   Memorandum for Record, Headquarters, U.S. forces-Afghanistan, SUBJECT: Findings and recommendations
(Credibility Assessment of Allegations of Human Rights Violations Appearing in a Human Rights Watch Report), p.
3 – 6, paragraph 2.c through 2.f, (Unclassified), dated 26 October 2011.


                                                       28
could also foster cooperation between the central government and provincial and district
governments. However, this paradigm of support for the ALP initiative was insufficiently
evident.

Provincial and district leadership could weaken the ALP program if they misuse these assets.
For example, if village residents perceive the ALP, who are supposed to be protecting their
village, are being sent to other areas of the district/province, they may insist the village pull out
of the ALP program altogether.

Conversely, those villages, districts, and provinces that have employed the ALP properly have
achieved significant success. Their villages were safer and the populace was becoming more
actively involved with GIRoA, through their district and provincial officials, according to U.S.
partners. Provincial and district officials who understood the principles and objectives of the
ALP program and were implementing them correctly were gaining the benefits. In these areas,
security had visibly improved and the local economy begun to flourish. Trust in GIRoA was
also on the rise.

Although difficult to develop, particularly in rural regions with low literacy rates and without
widespread access to electronic media, an effective GIRoA/MoI IO program in support of the
ALP would:

      help to educate Afghan leaders at the provincial, district, and village levels on the intent
       and principles of the ALP program, garnering cooperation and support for the program,
      counter inaccuracies and misinformation about the program with facts,
      help to identify those personnel impeding the program, and
      publicize success.

Without an effective, proactive IO program for the ALP, it will be more difficult to gain the
support of key stakeholders, such as PGOVs, PCoPs, DGOVs, DCoPs, and village elders,
slowing the development of the ALP program and hampering the effectiveness of the VSO and
ALP initiative.

Recommendation
5. Commander, Combined Forces Special Operations Component Command-Afghanistan, in
coordination with the International Security Assistance Force and Commander and North
Atlantic Treaty Organization Training Mission-Afghanistan/Combined Security Transition
Command-Afghanistan, assist the Ministry of Interior to develop an effective Information
Operations program that informs provincial and district officials, as well as the Afghan
populace, on the intent/goals of the Afghan Local Police program, and that counters inaccurate
allegations appearing in the news media.


Management Comments
CFSOCC-A concurred with Recommendation 5. CFSOCC-A Military Information Support
Operations elements partner with Afghan Information Dissemination Operations trained
Commandos in the nine Commando Kandaks and the Afghan Information Dissemination
Operations School of Excellence at Camp Moorehead. Afghan Information Dissemination
Operations trained Commandos, along with US SOF Military Information Support Operations


                                                  29
elements, partner with the MoI in the planning and execution of Military Information Support
Operations activities supporting ALP IO requirements. CFSOCC-A and the NTM-A/CSTC-A
Deputy Commander (DCOM)-SOF will address the long term IO requirements by training MoI
ALP headquarters staff personnel in select IO functions to improve MoI internal capabilities.

Our Response
CFSOCC-A comments were responsive. We will request a 6 month update on the development
of the GiRoA/MoI IO capability in support of the ALP program.




                                              30
Observation 6. Heavy Weapons for the Afghan Local Police
ALP units were often being effectively engaged by insurgents from ranges beyond that of the
AK-47 assault rifles14 that ALP personnel have been issued at the time of their initial fielding.

ALP units generally have not been issued rocket-propelled grenades (RPGs) or Pulemyot
Kalashnikova Machine Guns (PKMs15). Insurgents have learned to engage the ALP with heavier
weapons with longer ranges, knowing that the ALP cannot effectively respond with just their
AK-47s.

ALP units using AK-47s are not effective against insurgents utilizing heavier weapons. Without
the use of PKMs in situations with increased threat, ALP units are not able to conduct their
mission to provide peace and protection in their village and are likely to sustain increased
casualties. Furthermore, without heavier weapons, ALP units may be unable to prevent armed
opposition infiltration by insurgents.

Applicable Criteria (See Appendix C, Numbers 5, 21, 22, 23, and 24, for additional
details.)

        CFSOCC-A Memorandum for Record, “Policy and Guidance Regarding ALP Medium
         Crew-Served Weapons,” July 20, 2011.
        MoI Medium Weapons Cipher, “Procedures Used for ALP to Request the Employment
         of Medium Crew-Served Weapons,” July 17, 2011.
        MoI, Office of the Senior Deputy of Security, Department of the Afghan Local Police,
         “Afghan Local Police Establishment Procedure,” Updated March 2011.
        MoI Order Memo NO: (7158), Receipt#: (7134), “Afghan Local Police Establishment
         Procedure,”August-September 2010.
        NTM-A/CSTC-A “Afghan Local Police (ALP) Ministerial Development Plan,” March
         2011.

Discussion
The ALP program is a village-focused program that complements Counterinsurgency (COIN)
efforts by targeting rural areas with limited to no ANSF presence to enable conditions for
improved security, governance, and development.

Primarily defensive in nature, ALP units are a force designed to provide small-scale, community-
watch policing in and around their own villages. The primary tasks of the ALP are to:

            protect the people against the enemies of Afghanistan,
            protect the local government institutions and operations,
            protect critical infrastructure,
            facilitate reconstruction and development,

14
   An AK-47 is an individual assault rifle, fed from a 30 round magazine, and is used for point targets.
15
   PKM is the acronym for a Russian-made Pulemyot Kalashnikova Machine Gun. The PKM is a light, belt-fed,
machine gun designed to be carried and/or employed by one person. It is a small arms weapon that fires a round
slightly different from the AK-47. An AK-47 round is 7.62x39mm and a PKM round is 7.62x54mm in diameter.
The PKM has a greater range than the AK-47.


                                                       31
          disrupt insurgent attacks and activities,
          deny insurgent safe havens, and
          assist in maintaining security.

The NTM-A/CSTC-A “Afghan Local Police (ALP) Ministerial Development Plan” and ALP
Tashkil states that ALP personnel are armed with small arms for self-defense, specifically an
AK-47.

During assessment team fieldwork, we visited U.S. and Coalition Regional Commands (RCs) in
the North (Mazar-e-Sharif), South (Kandahar), Southwest (Helmand) and East (Bagram). In
each region, the team interviewed village Elders and ALP Commanders from both emerging and
mature ALP sites. Additionally, we met with several provincial and district leaders, including the
DGOV and the DCoP, as well as their U.S and Coalition Advisors. In each regional area, both
Afghan leaders and U.S. and Coalition Advisors described situations where the threat posed by
insurgents was significant and that, at times, heavier weapons were needed to be able to respond
effectively. Examples of the need for heavier weapons included the following:

      RC-East: One ALP Commander explained that they lost several ALP the past year
       because they did not have the right weapons. They needed heavier weapons for the ALP
       and an ALP Quick Reaction Force at the village ALP headquarters to provide assistance
       when needed. Additionally, the ALP Commander explained that he was aware that MoI
       said they could have PKMs in “vulnerable places” and had submitted the necessary
       paperwork through the DCoP, including a justification for the heavier weapons.
       However, he had not received them.
      RC-East: Command personnel explained that Taliban activity was very common and the
       area was under a high threat. Consequently, it was classified as “highly kinetic.”
       Additionally, Afghan leaders commented that there were not enough Afghan National
       Police in the area to ensure effective security.
      The border area with Pakistan, RC-East: An advisor explained that the enemy moves
       freely from the tribal areas in Pakistan into Afghanistan and that no one was challenging
       them at the border. Additionally, he noted that ALP units were at times engaging
       insurgents at the borders, when the Afghan Border Police were not effective, to prevent
       the insurgents from advancing to their villages.
      RC-South: ALP complaints were that AK-47s did not enable them to fight the
       insurgents, who have heavier weapons with longer ranges. ALP commanders thought
       they needed the same capabilities that the enemy had.
      RC-South: Coalition partners acknowledged that ALP units had asked for heavier
       weapons. However, they explained that the rocket-propelled grenades they had asked for
       were unrealistic in the narrow trails and with the dense foliage in the area. Instead, the
       Coalition partners believed that PKMs would best help to defend checkpoints.
      RC-Southwest: Coalition ALP partners believed that ALP units with AK-47s were
       “outgunned.” Additionally, they explained that insurgents engaged the ALP with heavier
       weapons from as far out as 1500 meters and that AK-47s were not designed to engage the
       enemy at that distance.

Article 25 A in the MoI’s ALP Establishment Procedures indicates that ALP units may be issued
heavier weapons, such as PKMs and RPGs, to “balance their fire power against the enemy.” In
support of Article 25 A, MoI released “Procedures Used for ALP to Request the Employment of
Medium Crew-Served Weapons” on July 17, 2011, which identified the conditions and


                                                 32
procedures for the issuance of medium crew-served weapons, such as PKMs, to ALP units.
Specific procedures required that ALP Commanders justify their request for heavier weapons
and that their request was endorsed and routed through the DCoP, validated by the PCoP, and
approved by the MoI Director of the ALP.

In response to MoI’s cipher, the Commander, CFSOCC-A published clarifying guidance to
ensure that CFSOCC-A personnel who work with ALP units were aware of the MoI’s policy and
procedures for the issuance of medium weapons to ALP units.

Although there were MoI procedures in place for ALP units to request heavier weapons,
CFSOCC-A was not aware of any such requests submitted by ALP Commanders or approved by
DCoPs or PCoPs. Furthermore, it was not readily evident during our fieldwork that PCoPs,
DCoPs, and ALP commanders in the battle space, as well as U.S/Coalition partners, were aware
that specific MoI and CFSOCC-A policies existed already addressing ALP unit use of heavier
weapons.

During our interviews, we identified several possible reasons for why ALP units may be
hindered in their attempts to obtain heavier weapons. Specifically:

      In RC-East, U.S. partners explained that some PGOVs and DGOVs were not supportive
       of the ALP program and have heard them say, “Why would I arm the villages when they
       may use those weapons against GIRoA in the future.”
      A RC-Southwest senior logistics advisor explained that, at times, there was “very little
       trust” between ALP units and the Afghan Uniformed Police (AUP), and that some AUP
       were concerned that ALP personnel would use their weapons against them.
      Interviews with RC-South Special Forces units identified that one of their challenges was
       getting DCoPs to acknowledge their responsibilities and their support for the ALP
       program. Additionally, SOF teams identified communication challenges between the
       DCoP and PCoP, which may have hindered the ALP units being issued supplies,
       including the heavier weapons they need to be effective in their mission.
      Another advisor from RC-South acknowledged that the DCoP could assist ALP units in
       getting PKMs; however, he explained that there were challenges in doing so since PKMs
       were not included in the ALP Tashkil.
      In RC-North, a U.S logistics advisor explained that some PCoPs viewed the ALP
       program as low priority and focused on the needs of the AUP. Additionally, he explained
       that he does not believe that MoI had clearly identified whether the ALP program is a
       priority within MoI.
      A senior CFSOCC-A official clarified that current MoI procedures to issue heavier
       weapons to ALP units require that the DCoP issue a PKM from the existing provincial
       police supply of weapons that were dedicated to other AUP units. Consequently, he
       explained, that it was possible the PCoP would be reluctant to issue a PKM to an ALP
       unit at the expense of an AUP unit.

A senior official from CFSOCC-A agreed that there are times when the threat is significant and
that ALP units require a heavier weapon, such as a PKM, to prevent them from being
“outgunned” by insurgents. He suggested that a limited number of PKMs should be added to the
ALP Tashkil at a ratio of 5 PKMs per village group of 30 ALP personnel. This would allow for
one PKM at several village checkpoints and two for a quick response force at the ALP village
headquarters. Additionally, this senior CFSOCC-A official recommended that the need for


                                              33
heavier weapons, such as a PKM, be validated by NTM-A/CSTC-A through their Afghan
Security Forces Fund Requirement Review and Validation Board and properly institutionalized
in their procurement process.

Recommendations
6. Commander, North Atlantic Treaty Organization Training Mission–Afghanistan/ Combined
Security Transition Command–Afghanistan, in coordination with the Combined Forces Special
Operations Component Command–Afghanistan and the Ministry of Interior:
    a. Validate the requirement for heavier weapons, such as the Pulemyot Kalashnikova
Machine Gun and the rocket propelled grenade launcher, in Afghan Local Police organizations
using the Afghan Security Forces Fund Requirements Review and Validation Board.
    b. If validated, ensure that the proper type/number of approved heavy weapons are added
to Afghan Local Police Tashkils through the formal Ministry of Interior 2028 process.
    c. Coordinate with the Ministry of Interior to ensure that sufficient ammunition is
authorized/available for any heavy weapons authorized for the Afghan Local Police.
    d. Identify what additional training, if any, is needed and update the Afghan Local Police
Program of Instruction to ensure that Afghan Local Police personnel are proficient in operating
any authorized heavy weapons.

6.e. Commander, International Security Assistance Force, in coordination with the
International Security Assistance Force Joint Command, Combined Forces Special Operations
Component Command, the North Atlantic Treaty Organization Training Mission-
Afghanistan/Combined Security Transition Command-Afghanistan and the Ministry of
Interior, ensure that the policies that are in place to support Afghan Local Police units
requesting heavier arms are effectively communicated throughout U.S./Coalition and Afghan
National Security Force commands down through district level and that Coalition partners
mentor provincial and district police counterparts to support requests for authorized heavy
weapons.




                                               34
Management Comments
NTM-A/CSTC-A concurred with Recommendation 6.a. The requirement for PKM machineguns
in ALP units was validated. However, the CDR, CFSOCC-A assessed the requirement for RPGs
and did not approve their use by the ALP.

NTM-A/CSTC-A concurred with Recommendation 6.b. The validated requirement for PKM
machine guns is reflected in the SY 1391 Tashkil, authorizing one PKM for every six ALP. As
of April 30, 2012, 1745 PKMs have been fielded to ALP organizations, although logistical
challenges continue to hinder distribution.

NTM-A/CSTC-A concurred with Recommendation 6.c. Each PKM is shipped to the ALP with
960 rounds, which is the equivalent of two basic loads of ammunition.

NTM-A/CSTC-A concurred with Recommendation 6.d, noting that an additional course of
instruction was developed on PKMs and is being taught by Coalition ALP partners in ALP field
units.

ISAF concurred with Recommendation 6.e. CFSOCC-A validated the requirement for PKM
machineguns for the ALP and Coalition partners at district and provincial levels are working
with their Afghan counterparts to obtain, distribute, and account for these CFSOCC-A-procured
weapons.

Our Response
NTM-A/CSTC-A comments to Recommendations 6.a through 6.d were responsive and no
further action is required.

ISAF comments to Recommendation 6.e were responsive and no further action is required.




                                              35
PART III – EXECUTION




         37
Observation 7. Communication Issues
Communication and coordination between and among ISAF, CFSOCC-A, and NTM-A/CSTC-A
regarding the ALP program has been insufficient.

This occurred because CFSOCC-A and NTM-A/CSTC-A have not developed and executed a
communication strategy that ensures synchronization of these commands’ efforts regarding the
ALP program.

Lack of effective coordination and communication among the responsible commands has created
confusion and disruption in implementation of the ALP at the district and village level, most
notably in the areas of logistics. In addition, it has hampered visibility of MoI payment records
that CFSOCC-A, the Executive Agent, requires to manage the program and reconcile any
personnel versus pay discrepancies at the district level. This has led to delays in program
implementation.

Applicable Criteria (See Appendix x, Numbers 4, 22, 23, and 24, for additional details.)

      CFSOCC-A “Partner Force SOP for MoI Pay/Afghan Local Police (ALP) Pay Process,”
       September 30, 2011.
      MoI, Office of the Senior Deputy of Security, Department of the Afghan Local Police,
       “Afghan Local Police Establishment Procedure,” Updated March 2011.
      MoI Order Memo NO: (7158), Receipt#: (7134), “Afghan Local Police Establishment
       Procedure,”August-September 2010.
      NTM-A/CSTC-A “Afghan Local Police (ALP) Ministerial Development Plan,” March
       2011.

Discussion
Oversight and responsibility for the development of the ALP are responsibilities shared by:

      CFSOCC-A, as ISAF’s executive agent for ALP,
      IJC, which has overall responsibility for battle space combat operations and the effects
       thereof, and
      NTM-A/CSTC-A, which has responsibility for ministerial development and use of ASFF
       in financial support of the ALP program.

Additionally, each ALP unit is under the control of local shuras and the district DCoP, advised
by small conventional force or Coalition SOF teams. This has produced a situation that is
fraught with communication challenges. In some instances, communication issues have had a
negative impact on the Coalition’s effort to field and support the ALP, particularly in the areas of
logistics and pay, which has delayed program implementation.

Based on interviews and document review, the DoDIG team determined that:

      CFSOCC-A viewed the ALP program as their number one priority.
      IJC generally supported CFSOCC-A on that basis.
      NTM-A/CSTC-A planned and programmed their support for the ALP program as priority
       five of six. From NTM-A/CSTC-A’s perspective, the ASFF monies involved in their



                                                39
       support of ALP is a small percentage of the funding involved in their overall train and
       equip effort in support of the ANSF.

In some instances, logistical deficiencies identified by CFSOCC-A appeared not to have been
clearly communicated to NTM-A/CSTC-A or NTM-A/CSTC-A did not understand the
magnitude of their impact on standing up a particular ALP site and training the ALP recruits
there.

Some examples of communications/coordination issues identified, perceived or real, included:

      Staff officers believed there was little synchronization of priorities by the senior
       leadership of the commands involved in the ALP program.
      NTM-A/CSTC-A was generally unaware of the impact MoI logistical failures were
       having on the ALP program, e.g. delayed training, ALP with no weapon, etc. (See
       Observation 9.)
      Budgetary decision points were approaching, yet no decision had been made or guidance
       given about the enduring nature of the ALP program (See Observation 1.)
      There was confusion at CFSOCC-A and NTM-A/CSTC-A about the ability to reconcile
       MoI disbursements to ALP against the ASFF monies transferred to the MoI for that
       purpose, complicated by alleged restrictions imposed by GIRoA law. (See Observation
       11.)
      There was no clear understanding between CFSOCC-A and NTM-A/CSTC-A that some
       ALP were being paid via electronic fund transfer (EFT), in violation of the MoI “trusted
       agent” process that provided for in-person cash payments at the district headquarters.
       (See Observation 12.)
      There was concern among staff officers in the Coalition commands about possible
       unconfirmed “unilateral” ALP sites and whether ASFF money was being used to fund
       them. (A unilateral ALP location is a site supposedly set up by the MoI outside of the
       approved Coalition/GIRoA/MoI construct for the ALP program. With no Coalition
       personnel to train or partner at a unilateral site, payment of Afghan personnel at such sites
       with ASFF would violate Coalition procedure and intent for the ALP program, and
       agreement with MoI.)

In summary, improved communications and coordination were required between and among the
Coalition commands involved with ALP development, and with the MoI, in order to contribute
to a better understanding of the roles and responsibilities assigned to each. This would facilitate
coordination and execution of the combined effort to support the ALP, most notably with regard
to logistics and pay issues.

Recommendation
7. Commander , Combined Forces Special Operations Component Command-Afghanistan, in
coordination with the International Security Assistance Force, International Security Assistance
Force Joint Command, and North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan, develop a plan to improve communication
and coordination regarding Afghan Local Police issues, with initial focus on Ministry of Interior
logistical support and pay processes.




                                                40
Management Comments
CFSOCC-A concurred with Recommendation 7. CFSOCC-A and the NTM-A/CSTC-A
DCOM-SOF remain focused on assisting ALP headquarters and MoI improve administrative and
logistical support to the ALP. In conjunction with MoI, they have recently established
Command Review Conferences—focused on solving ALP sustainment issues, including pay, by
educating MoI ALP headquarters personnel and developing Afghan solutions. Additionally,
SOF and conventional force teams, partnered with ALP, continue to inform and notify the
Afghan Regional Logistics Centers of ALP sustainment issues. This multi-echelon approach has
modestly improved ALP sustainment through the Afghan-led distribution system, although it
will require continued mentoring and training to markedly improve it.

Our Response
CFSOCC-A comments were responsive. We will request an update in 6 months on the status of
MoI logistical and pay processes in support of the ALP.




                                            41
Observation 8. Afghan Local Police In-Processing by
Minister of Interior and the Provincial Recruiting Officer
ALP candidates have not been in-processed in a timely manner by the MoI and the Provincial
Recruiting Officer (PRO).

This occurred because the MoI has not fully taken on the responsibility for completing/executing
the vetting and enrollment tasks for ALP candidates, as outlined in the NTM-A/CSTC-A
“Afghan Local Police (ALP) Ministerial Development Plan.” Furthermore, PROs did not report
to ALP training sites and villages to perform their duties in a timely manner, if at all.

As a result, ALP are graduating from training and being assigned work as ALP members without
all of their administrative requirements complete. As such, MoI does not officially recognize
these ALP members for pay and benefits. In these instances, the Coalition temporarily provides
pay and benefits with ASFF monies available to the onsite Coalition partners, thus undermining
the linking of the villages through MoI to the GIRoA.

Applicable Criteria (See Appendix C, Numbers 22, 23, and 24, for additional details.)

    MoI, Office of the Senior Deputy of Security, Department of the Afghan Local Police,
       “Afghan Local Police Establishment Procedure,” Updated March 2011.
    MoI Order Memo NO: (7158), Receipt#: (7134), “Afghan Local Police Establishment
       Procedure,”August-September 2010.
    NTM-A/CSTC-A “Afghan Local Police (ALP) Ministerial Development Plan,” March
       2011.

Discussion
The MoI, along with local leaders, and assisted by Coalition partners, is responsible for the
recruiting, vetting, and in-processing of ALP members and candidates. The PRO is a
representative of the MoI and plays a critical role in this process. He is the official link between
the MoI and the individual ALP member.

In order for an ALP member to receive pay and benefits from the MoI, he must be in-processed
and complete the PRO documents, as required by the MoI. ALP in-processing includes the
following:

      conducting local background checks and ensuring the vetting process was completed
       properly,
      verifying ALP candidates are of the proper age (18-45) and are physically qualified,
      having candidates complete a 1 year contract,
      having candidates complete ID card applications,
      taking individuals pictures and thumb prints, along with biometric data,
      administering a urinalysis for drug screening,
      administering medical exams, and
      completing PRO documents, including pay forms for the MoI.




                                                 43
The in-processing is supposed to start with the PRO arriving at an ALP training site or village 10
days to two weeks prior to the CFSOCC-A sponsored in-processing team to conduct most of the
items listed above. However, in most cases, the CFSOCC-A in-processing team arrives and the
PRO is not there, nor has he been there. The CFSOCC-A in-processing team cannot complete
the PROs paperwork and forward it to the MoI, further complicating ALP recruitment and
training at that site.

In order for an ALP to receive pay and
benefits by the MoI, the PRO
documents must be submitted to MoI.
As one MoI general told us, if a
person is not in-processed properly by
a PRO, but is serving as an ALP, then
he is an “unofficial ALP.” In at least
one case, an ALP member was killed
in action, but because he was not in-
processed by the PRO, his family did
not receive a death benefit.

The following were some of the
reasons cited for the PRO unavailability:         Figure 5. A Village Stability Operation Site


      transportation issues,
      safety/security issues,
      lack of effort on the part of some PROs, and
      not having enough ALP available to make a trip worthwhile.

Some specific examples of problems we heard during our assessment include:

      In RC-North, we were told the PRO refused to go to the ALP training sites to conduct his
       work if a class had fewer than 100 candidates, but the classes have never had more than
       40 candidates, so the PRO has never been there. The Coalition SOF commander did not
       know whether the ALP he trained had taken the required urinalysis test or not, which is a
       PRO responsibility.
      In RC-Southwest, the Coalition estimated only 40 percent of the ALP there had been in-
       processed by the PRO.
      In RC-East we were informed that, at least in one district, the PRO had never shown up
       to perform recruiting duties for ALP.

To address the pay problem in the absence of MoI/PRO support, Coalition partners have used
ASFF to fund ALP at the local village level. Of the Coalition partner commanders we visited,
most of them said they had paid the ALP salaries because MoI was not yet doing so. They
reported these payments to NTM-A/CSTC-A, who reportedly decremented ASFF monies by that
amount to be transferred to MoI to pay the salaries. In the case of the ALP member killed in
action, the Coalition SOF unit paid his family the death benefit out of the Commander’s
Emergency Relief Fund (CERP).

By paying ALP salaries and benefits, Coalition partners, although trying to do the right thing, are
unable to achieve one of the objectives of the ALP program, which is to develop a link from the


                                                44
government to the people through the payment of wages/salaries. Instead, the ALP members
tend to view the Coalition partner teams as the providers and, in many cases, go directly to them
for assistance with ALP issues, vice approaching DGOV or DCoP. This is not a sustainable
solution. A senior official at NTM-A/CSTC-A stated that, despite the requirements in the MoI
decree, the PRO was always a problem in implementing the ALP program.

When we questioned Coalition officials about whether PROs were assigned Coalition partners,
the response was that some PROs have them and some do not, generally citing a lack of
Coalition personnel resources. During the assessment, we were unable to speak with a Coalition
mentor assigned to any PRO.

Recommendations
8.a. Commander, Combined Forces Special Operations Component Command-Afghanistan, in
coordination with North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan, coordinate with the Ministry of Interior
to ensure Provincial Recruiting Officers arrive at Afghan Local Police training sites at the
appropriate time so that Afghan Local Police members are properly in-processed and receive
pay and benefits from the Ministry of Interior in a timely manner.
8.b. Commander, International Security Assistance Force Joint Command, determine a
method to provide Coalition partnering with Provincial Recruiting Officers.


Management Comments
CFSOCC-A concurred with Recommendation 8.a. CFSOCC-A In-Processing Teams (IPT)
routinely coordinate with MoI ALP Headquarters for PRO attendance at scheduled ALP in-
processing events. SOF Teams partnered with ALP units also engage and coordinate with the
PRO. Additionally, NTM-A/CSTC-A recruiting advisors work closely with ANP leadership to
ensure PROs are prepared for and attend the ALP in-processing events. CFSOCC-A IPTs report
improved PRO competency and attendance at ALP in-processing events. Although the number
of PROs, as well as their funding, transportation, and security, remain insufficient, the combined
engagement efforts described above has improved the efficiency and participation of individual
PROs across the Combined Joint Operations Area.

IJC did not indicate concur or non-concur with recommendation 8.b. IJC reported that the ISAF
Commander appointed CFSOCC-A as the Executive Agent for executing the ALP program, to
include pay activities and in-processing. In coordination with CFSOCC-A, IJC analyzed
alternate models for in-processing of ALP. Although the current situation is tenuous, IJC and
CFSOCC-A determined there would be significant risk in altering the current ALP in-processing
procedures.

Our Response
CFSOCC-A comments to Recommendation 8.a were responsive. We will request an update in 6
months on PRO attendance at ALP in-processing events, as well as the efficiency of duty
performance at those in-processing events.

IJC comments to Recommendation 8.b were not responsive. The intent of the recommendation
was to determine a method to provide partnering with the PRO. We ask that IJC, coordinating
with CFSOCC-A, NTM-A/CSTC-A, and MoI, determine a method to partner with and train


                                                45
PROs on their responsibilities regarding ALP in-processing. If it is not appropriate for IJC to
perform this partnering, we ask that IJC identify and coordinate with the appropriate command to
accomplish this task and provide that information to us in response to the final report.




                                              46
Observation 9. Afghan Local Police Logistics Support
The MoI logistics system did not provide timely support to the ALP program. Specifically, it did
not provide ALP units with authorized equipment upon completion of their ALP training, timely
re-supply them with fuel and ammunition or provide them with other critical items of other
supplies, such as winter uniforms.

This situation existed because of:

        GIRoA inability to staff Regional Logistics Centers (RLCs) and Provincial Supply Points
         (PSPs) at levels authorized in their Tashkils,
        Inadequate staff experience or training at RLCs and PSPs on MoI logistics procedures,
        ALP personnel untrained on use of the MoI supply request process and forms,
        Provincial failure to complete administrative paperwork in a timely or appropriate
         manner,
        Authorized representative failure to appear at RLC/PSP to sign for and receive items, and
         deliver same to units, and
        Continued reliance on Coalition forces to transport, inventory, verify operational status,
         and issue items.

As a result, ALP units were not receiving authorized equipment and supplies when needed,
adversely affecting operational deployment, readiness, personal safety, and ability to function in
adverse weather.

Applicable Criteria (See Appendix C, Numbers 6 and 20, for additional details.)

        Combined Security Transition Command-Afghanistan, “Campaign Plan for the
         Development of Afghan National Security Forces,” September 20, 2008.
        MoI Logistics Management Directorate, “Process for the Management of Logistics,”
         January 6, 2009, (draft).

Discussion
Afghan National Police Logistics
ALP units are supplied through the MoI/ANP logistical system. As we have reported previously,
based on field work in March 200916, ANP logistical capability problems included:

        lack of an overarching CSTC-A strategic plan and operational implementation plan for
         developing ANSF logistical capability,
        insufficient number of Coalition logistics mentoring personnel to address security force
         expansion and logistical development,
        a Soviet-style legacy logistics system,
        hoarding, and corruption that undermined logistical system effectiveness,
        insufficient MoI/ANP logistics personnel, in terms of number, training, and literacy, and
        lack of adequate transportation infrastructure, especially for remote area access.


16
  SPO-2009-007, “Assessment of U.S. and Coalition Plans to Train, Equip, and Field the Afghan National Security
Forces,” September 30, 2009.


                                                      47
In our 2011 report, based on field work in August and October 201017, our assessment of the
ANP logistics system noted:

        Coalition efforts to improve the ANP logistics system had begun within the prior year,
        ANP commanders and logistics personnel lacked confidence in the supply process due to
         lack of transparency.
        Civilian personnel shortages existed due to insurgent intimidation, lack of qualified
         candidates, and insufficient pay, with subsequent reliance on Coalition personnel to
         perform logistical tasks.
        ANP senior commanders lacked an understanding of RLC and PSP authority, roles, and
         responsibilities (MoI rather than ANP commander control).
        U.S./Coalition personnel also failed to understand roles, primarily due to lack of guidance
         from NTM-A/CSTC-A and IJC. This situation could lead to ANP commander re-
         allocation of equipment and supplies at will, and no Coalition effort to prevent same.
        Equipment and supplies shipped to RLC/PSPs without prior coordination and proper
         documentation (MoI Form 9), requiring re-inventory upon receipt and inability to
         determine if theft or diversion had occurred in transit.
        ISAF lacked integrated plan for ANP logistical capability development.

Afghan Local Police Logistical Impacts
Although progress in development of an enduring MoI/ANP logistical system was evident during
this assessment, the above concerns continued to impact ALP equipping and supply efforts to
varying degrees, as noted by Coalition personnel, Afghan officials, and ANP/ALP members. For
example, there was near universal agreement among Coalition partners and Afghan personnel
that the logistical processes were weak, with supply request processing incomplete and/or slow,
leading to overall failure to meet unit needs. Concerns specific to ALP units included:

        ALP logistics being last in ANP priority for unit equipment and supply,
        ANP commanders’ hostility toward the ALP concept and units, due to concerns about
         control of units and members and the perception the ANP is arming future hostile ethnic
         militias,
        possible diversion of equipment by ANP or Afghan officials (See Observation 10 for
         additional information),
        ALP unit locations difficult to supply/resupply (rural, remote, and/or mountainous
         locations with poor road access and security concerns),
        failure to follow logistics procedures, e.g. completion of request form (MoI-14) for re-
         supply,
        untimely or piecemeal delivery of equipment, especially weapons for training,
        MoI Logistics Management Directorate, "Process for the Management of Logistics,"
         January 6, 2009, (draft), still not officially approved, (SPO-2011-003, March 3, 2011)
         possibly affecting recognition of signature authorities for document processing, with
         subsequent delays in requests and issuance approvals,
        delayed travel to supply sites by officials authorized to draw equipment and supplies
         from RLCs or PSPs for further distribution,



17
  SPO-2011-003, “Assessment of U.S. Government Efforts to Train, Equip, and Mentor the Expanded Afghan
National Police,” March 3, 2011.


                                                    48
          equipment quality and suitability: VS-58 rifles of dubious quality supplied as opposed to
           AK-47s; pick-up trucks unable to maneuver in narrow streets rather than motorcycles;
           uniforms/boots with sizing not matching recipients, and
          The CSTC-A, “Campaign Plan for the Development of Afghan National Security
           Forces,” was out of date (September 2008) and failed to capture decisions made since
           that date regarding ANSF development, to include the ALP program.

The primary effect of these concerns was that ALP recruits were not supplied key equipment,
especially weapons, to enable them to undergo the required three-week program of instruction.
Members would either have to bring their own weapons, train with weapons temporarily
provided by Coalition partners, or delay joining for training until the ANP supplied weapons, as
required.

Having affiliated themselves with the ALP program and GIRoA, ALP recruits who graduate and
have no weapon are vulnerable to insurgent retaliation, with no means to defend themselves.
Moreover, the lack of uniforms, vehicles, and/or communication equipment upon graduation
meant ALP members/units could not effectively carry out their mission to secure and defend
their village.

                                                               Coalition members indicated that delivery
                                                               of ALP supplies averaged 45-60 days from
                                                               the time of the official Coalition/MoI
                                                               determination that a site has been validated
                                                               for the ALP program to delivery of
                                                               supplies to an RLC. Time for the RLC
                                                               inventory of a shipment could add an
                                                               additional 14 days. Actual pickup of ALP
                                                               equipment at the RLC/PSP by an
                                                               authorized ANP or provincial official
                                                               could add another 30 to 60 days to the
                                                               process.18
         Figure 6. ALP Vehicles at a Regional Logistics
                           Center

Coalition officials expressed concerns that an unreliable ANP logistical system might result in
failure to sustain ALP units once Coalition partners and support withdrew.

Coalition Responses
Coalition forces attempted to deal with the ANP/ALP logistical problems in several ways.

Because of the inability to fill Tashkil-approved ANP logistics positions at RLCs/PSPs and
limited experience/capability of the ANP assigned there, Coalition partners were performing the
logistics functions, e.g. inventory, receipt, storage. While this approach was not ideal for


18
    We reviewed a limited sample of shipments made to RLCs and the Helmand PSP and found delivery dates (date
issued from Kabul depot to date issued to ALP receiving agent) ranged from six to 88 days. The longer times were
associated with RLCs and ALP districts in RC-North and RC-South. An audit trail existed to track issuance and
transport of ALP-related items. We were unable to determine how many, if any, of the shipments in this limited
sample arrived in time to be issued to ALP recruits on graduation from training.


                                                          49
building a sustainable ANP logistical system, it did provide more timely logistical support for the
ALP.

Coalition partners have also escorted responsible officials (DGOV, DCoP, or authorized
designee) to the RLC or PSP to sign for authorized items and deliver them to district facilities for
distribution to ALP units. This approach provided both immediate transportation and security
and reduced any delays.

Coalition partners in some areas have coordinated with MoI to designate trusted agents,19 rather
than GIRoA government officials or ANP staff, to receive and distribute equipment and supplies.
This approach allows an appropriate designee to perform the necessary functions, avoiding
delays by Afghan officials who are unavailable for travel or who are otherwise occupied. ALP
Coalition partners assist these trusted agents.

In RC-East, the RLC is located in Gardez; however, several districts to the east are actually
closer to the depots in Kabul. Coalition partners helped coordinate authorization for these
districts to go directly to the central depot in Kabul to obtain requested items, reducing the time
necessary for shipment to and processing by the RLC, and subsequent travel to receive the items.

“ALP in a box” was a concept discussed by NTM-A/CSTC-A as a means of ensuring that
uniforms, weapons, and communication equipment would be packaged and delivered en masse
to an ALP unit. Not yet coordinated with MoI, this concept would place all ALP equipment for a
designated ALP site, less vehicles in a set of connexes. The connexes would be transported by
the same convoy. Delivery would be made either to an RLC/PSP or directly to an ALP unit.

The concept offers several advantages:

        items would be inventoried, packaged, and delivered in the proper quantities for a
         specific unit,
        shipment in a locked connex or similar container could provide security against pilferage
         en route; if left intact at an RLC, diversion would be less likely, and
        if accompanied by a completed MoI Form 9 (delivery/receipt document), an RLC could
         record receipt on the property books and thus be consistent and in compliance with MoI
         logistics system requirements. Even if the container were shipped directly to an ALP unit
         site, a properly prepared and re-validated MoI Form 9 (assuming the container were
         opened and content inventoried upon delivery) would provide accountability and
         consistency with MoI requirements.

These different supply approaches would not mitigate all the ANP logistical problems or ensure
necessary ALP logistical sustainability without Coalition assistance. However, they would
provide the ANP the opportunity to provide ALP units the necessary items to begin operations
and demonstrate their contribution to local security, consistent with MoI/ANP logistical system
requirements. The “ALP in a box concept” was therefore a promising alternative to address
concerns observed during our visit.




19
  As opposed to MoF authorized trusted agents for pay, these trusted agents are authorized by the MoI to receive
and distribute equipment and supplies, as opposed to monies.


                                                        50
Recommendations
9. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/Combined
Security Transition Command-Afghanistan:

   a. Coordinate with Ministry of Interior to accelerate delivery of authorized Afghan Local
Police equipment/supplies.

   b. In coordination with International Security Assistance Force Joint Command,
Commander, Combined Forces Special Operations Component Command-Afghanistan, and
the Ministry of Interior, determine if the “Afghan Local Police in a box” concept is feasible
and compatible with the Ministry of Interior logistics system. If this determination is made,
implement the concept for future Afghan Local Police units.

  c. In coordination with the Government of the Islamic Republic of Afghanistan Ministry of
Defense and Ministry of Interior, update the 2008 “Campaign Plan for the Development of
Afghan National Security Forces.”

9.d. Commander, Combined Forces Special Operations Component Command-Afghanistan,
in coordination with International Security Assistance Force Joint Command, North Atlantic
Treaty Organization Training Mission-Afghanistan/Combined Security Transition Command-
Afghanistan, and the Ministry of Interior, do not commence ALP training until authorized
equipment is on-hand.

Management Comments
NTM-A/CSTC-A concurred with Recommendation 9.a. DCOM-SOF is mentoring the ALP
Headquarters G-4 about MOI logistics. DCOM-SOF ALP mentors established a weekly logistics
forum in an effort to create a group focused on ALP Logistics needs and challenges. This forum
has proven valuable in facilitating cross-communications, integrating actions of NTM-A
mentors, CFSOCC-A logisticians and Combined Joint Special Operations Task Force-
Afghanistan logisticians and providing a standing forum for addressing immediate or urgent
needs.

NTM-A/CSTC-A non-concurred with Recommendation 9.b. This alternative was proposed and
analyzed in the course of addressing the urgent need at four priority ALP sites. It was the initial
COA proposed to solve the ALP logistics challenges and was given due consideration.
However, NTM-A/CSTC-A leadership determined that it was a less executable process and,
given the limitations of the current Afghan logistics system, would present an undue burden on
coalition tactical units. As a result of this assessment, the “ALP in a box” COA was determined
to be a less desirable option than the standard ANP logistics distribution system.

NTM-A/CSTC-A concurred with Recommendation 9.c. In conjunction with the MoI,
NTM-A’s Campaign Plan for development of the Afghan National Police remains unchanged.
NTM-A/CSTC-A will:

      grow the ANP to 157,000 strength,
      balance the force by recruiting and training suitable NCO candidates,
      reduce or eliminate the number of previously untrained ANP, and


                                                51
      continue to professionalize the police using common POI which includes code of
       conduct, human rights and gender integration.

ALP is a sub-pillar of the MOI/ANP Force Structure and is well suited to be a thickening force to
provide safety and security in remote areas. DCOM-P supports CFSOCC-A in the equipping role
of the ALP.

CFSOCC-A non-concurred with Recommendation 9.d. CFSOCC-A noted that the Afghan
logistics system is incapable of ensuring that authorized ALP equipment arrives near
simultaneously, or in a timely manner, at a new ALP site. Waiting until all authorized ALP
equipment is on-hand to commence training would cause significant delays in the establishment
of ALP units across Afghanistan. Specific POI classroom training can occur in the absence of all
authorized equipment. SOF teams must retain flexibility to commence ALP training on a
conditions-based, event-driven basis to sustain momentum in expanding the ALP program.

Our Response
NTM-A/CSTC-A comments to Recommendation 9.a were responsive. We will request an
update in 6 months on the status of MoI logistics support to ALP organizations.

NTM-A/CSTC-A comments to Recommendation 9.b were responsive. We accept their non-
concur with the “ALP in a box” concept. We asked that they determine if the concept was
feasible and compatible with the MoI logistics system and they determined that it was not. No
further action required.

NTM-A/CSTC-A comments to Recommendation 9.c were not responsive. To our knowledge,
the Combined Security Transition Command – Afghanistan, “Campaign Plan for the
Development of Afghan National Security Forces,” dated September 20, 2008, was the last
version of the campaign plan published. Much has changed since then, to include organization
and fielding of the ALP. We ask that NTM-A/CSTC-A provide an estimated date when they
will incorporate the ALP subcomponent into the Campaign Plan.

CFSOCC-A comments to Recommendation 9.d were responsive. We accept CFSOCC-A’s
non-concurrence based on their analysis of the impact of delaying training until authorized
equipment arrives at the new ALP site. While the physical presence of all authorized
equipment/supplies may not be necessary to commence training, we remain concerned about the
danger associated with graduating trained ALP and fielding ALP units without critical “shoot,
move, and communicate” equipment. We will request an update in 6 months on the status of
“shoot, move, and communicate” equipment in fielded ALP organizations.




                                               52
Observation 10. Withholding, Diversion, and Delay of Afghan
Local Police Equipment
Coalition partners and ALP commanders report that authorized equipment—vehicles, weapons,
ammunition, uniforms, or communication gear—often does not reach ALP units due to
withholding or diversion by an individual PGOV, PCoP, DGOV, or DCoP.20

This situation exists because some PGOVs, PCoPs, DGOVs, or DCoPs:

        do not support the ALP program,
        believe that the ALP has lost or will lose weapons and ammunition,
        diverted equipment to other than the designated ALP unit or for non-official use by
         others, and
        fail to complete administrative paperwork in a timely or proper manner, if they complete
         it at all.

As a result, some ALP units are not receiving the full complement of their authorized items,
which affects operational readiness and potentially places ALP members in danger (identified as
an ALP member, but without a weapon for self-defense).

Applicable Criteria (See Appendix C, Numbers 12 and 20, for additional details.)

        DoD 4140.1-R, “DoD Supply Chain Material Management Regulation,” May 23, 2003.
        MoI Logistics Management Directorate, “Process for the Management of Logistics,”
         January 6, 2009, (draft).

Discussion
ALP units are supplied through the MoI/ANP logistical system. As we have reported
previously21, the ANP logistical system suffers from:

        lack of transparency and blockage of supplies, often involving corruption and pilferage,
        inability to fill authorized civilian positions at logistics depots due to security and pay
         issues,
        lack of a pool of qualified logistics technicians, and
        equipment/supply shipments that were not properly coordinated and did not contain
         proper documentation of contents. (See Observation 9 for a more detailed discussion of
         these problems.)

During our visit, Coalition partners and ALP commanders complained of the diversion of ALP
equipment and supplies at various levels of the ANP command chain, e.g. by the PGOV, PCoP,
DGOV, or DCoP.22 Examples included:

        PCoP (since replaced) keeping supplies and giving vehicles to friends,
20
   Issues concerning the ANP logistics system as they pertain to ALP equipment and supplies are discussed in
Observation 9.
21
   SPO-2011-003, “Assessment of U.S. Government Efforts to Train, Equip, and Mentor the Expanded Afghan
National Police,” March 3, 2011.
22
   Issues concerning the ANP logistics system as they pertain to ALP equipment and supplies are discussed in
Observation 9.


                                                       53
        PCoP sending ALP items to the Afghan Uniformed Police (AUP) under his command, as
         opposed to the authorized ALP unit,
        PCoP retained better equipment, e.g. AK-4723 rifles for VS-58 rifles24,
        PCoP/DCoP diversion of winter coats intended for ALP to AUP units, and
        RLC/PCoP/DCoP may take/retain “their portion” of ALP equipment, e.g. corruption.

Conversely, according to Afghan officials, allegations and/or incidents of diversion are
exaggerated and are limited to weapons and ammunition only. The problem supposedly lies with
Coalition forces working outside the MoI/ANP system. Allegations were also made that ALP
units had “lost” weapons and ammunition. We could not verify these assertions. However, it
was clear that Coalition partners believe diversion is either a strong possibility or actually occurs
among the ANP, and is a far more serious problem for the ALP program.

Coalition partners and staff are attempting to ensure diversion does not take place. Nevertheless,
the overall deficiencies and issues with the ANP logistical system, coupled with an unwillingness
to support the ALP initiative among some Afghan officials, including ANP, must be corrected to
ensure an effective and sustainable ALP supply system. Withholding and diverting authorized
ALP equipment/supplies will result in ALP units that are ill equipped and unable to secure their
villages. Such actions will also lead to a loss of accountability for Coalition-provided equipment
and supplies.

Recommendations
10.a. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan, in coordination with International
Security Assistance Force Joint Command and Combined Forces Special Operations
Component Command-Afghanistan, mentor Afghan personnel at the Ministry of Interior and
Regional Logistics Centers/Provincial Supply Points to develop and/or strengthen measures to
minimize or preclude occurrences of withholding/diversion of Afghan Local Police supplies
and equipment.
10.b. Commander, International Security Assistance Force Joint Command, in coordination
with North Atlantic Treaty Organization Training Mission-Afghanistan/Combined Security
Transition Command-Afghanistan and Combined Forces Special Operations Component
Command-Afghanistan, mentor Afghan provincial officials and Afghan National Police
personnel at Zone/Corps and below to develop and/or strengthen measures to minimize or
preclude occurrences of withholding/diversion/delay of Afghan Local Police supplies and
equipment.




23
   An AK-47 is an individual assault rifle of Soviet design, fed from a 30 round magazine, and is used for point
targets.
24
   A VS-58 is a Czechoslovakian individual assault rifle that fires a 7.62x39mm round. The round is the only part
interchangeable with the AK-47.


                                                        54
Management Comments
NTM-A/CSTC-A concurred with Recommendation 10.a. DCOM-SOF ALP in collaboration
with the MoI ALP Headquarters Director, CFSOCC-A J35/4, and Combined Joint Special
Operations Task Force-Afghanistan J-10 developed a concept to address challenges for proper
execution of the ALP program concerning logistics. Three related actions make up this concept:
Command Review, Assessment Team, and the Assistance Teams. The Command Review is
focused on engaging and informing the leadership at the MoI, Provincial, and District levels. Its
intent is to resolve misunderstandings and align leaders on the objectives and goals of the ALP.
The Assessment Team is focused on the next echelon of leaders and executors at the Provincial
and District level. This forum serves three purposes for the ALP program: Inspection, Staff
Assistance, and Battlefield Circulation. The Assistance Team is intended to assist the field unit
with a specific area of expertise, such as logistics. These three actions effectively improve the
overall execution of ALP program and logistics benefits as a result.

IJC concurred with the concept of mentoring in Recommendation 10.b, but noted that IJC does
not directly mentor at the provincial level or at the individual ALP district. IJC recommended
that this responsibility be given to NTM-A/CSTC-A. IJC would continue to conduct Key Leader
Engagements at the MoI level to encourage it to develop written ciphers (orders) to encourage
AUP and ANP leaders to support the ALP and to not withhold/divert/delay ALP-designated
supplies and equipment. IJC would also provide operational guidance on this issue to Coalition
Forces with FRAGOs, as required.

Our Response
NTM-A/CSTC-A comments to Recommendation 10.a were responsive. We will request an
update in 6 months on efforts to strengthen measures at the MoI and Regional Logistics
Centers/Provincial Supply Points to minimize or preclude occurrences of withholding/diversion
of Afghan Local Police supplies and equipment.

IJC comments to Recommendation 10.b were responsive. However, we request clarification at
what levels and where IJC is responsible for mentoring or partnering with ANP and whether the
IJC recommendation that responsibility for ANP mentoring at the provincial and district levels
be given to NTM-A/CSTC-A has been coordinated with that organization.




                                               55
Observation 11. Afghan Local Police Payroll—Fund
Accountability
NTM-A/CSTC-A can account for ASFF transferred to the MoI for payment of the ALP.
Furthermore, ALP payroll processes utilized by Coalition partners to provide oversight of funds
drawn from the Commander’s Emergency Relief Program (CERP) and ASFF appear to be
effective in:

      Ensuring authorized ALP members are paid in their initial months in the program, and
      Reporting disbursement of those funds to NTM-A/CSTC-A.

However, as MoI takes over the responsibility for paying any individual ALP, internal
processing procedures impact timeliness, transparency, and could result in duplicate payments.

This occurs because incorporating a new ALP recruit into the MoI pay system takes months,
during which the Coalition partners provide pay, as noted above. Additionally, oversight of MoI
payroll expenditures is reportedly hampered by GIRoA law and procedure.

As a result, current MoI pay processing procedures could result in:

      late payroll payments,
      electronic fund transfer (EFT) payments to unauthorized individuals,
      duplicate payments, and
      an MoI inability to reconcile disbursements against ALP membership.

Applicable Criteria (See Appendix C, Numbers 7, 8, and 25, for additional details.)

      CSTC-A Memorandum “Policy for Planning, Resourcing and Executing Afghanistan
       Security Forces Fund (ASFF),” April 5, 2011.
      DepSecDef Memorandum “Management of the Afghanistan Security Forces Fund,”
       November 12, 2009.
      UnderSecDef, Comptroller, Memorandum “Funding for Afghan Local Police (ALP)
       Recruiting Expenses,” June 17, 2011.

Discussion
Depending on the situation, ALP members can receive monthly salary payments from three
separate sources/methods:

      Coalition partners, from CERP or ASFF, if MoI has not yet paid,
      MoI trusted agents (in person cash payments), or
      MoI, via the EFT payment process. (This is not the primary method.)

At the time of the DoDIG team visit, the ALP program was only about a year old. Although MoI
had developed ALP payroll procedures, the speed of execution has hampered MoI ability to
incorporate new ALP recruits into the MoI payroll system—often taking months to do so. As
noted, Coalition partners have provided pay in the interim, initially from CERP and now from
ASFF. However, with the exception of those few ALP units receiving payments through EFT



                                               57
(See Observation 12), payroll procedures for cash payments were the same, whether the funds
came through MoI or from Coalition partners.

In compliance with appropriate guidance, CFSOCC-A developed a payroll disbursement process,
incorporating MoI requirements, with the following elements:

     1. Payroll is distributed once a month to authorized ALP members.
     2. The ALP District Commander, the District Quartermaster, or designee completes a time
        and attendance report, listing all district ALP members. The time and attendance report
        is signed by the ALP District Commander and the DCoP.
     3. The Provincial Recruiting Officer (PRO) and Provincial Finance Officer process and
        approve the time and attendance reports and follow MoI and Ministry of Finance (MoF)
        requirements to draw funds and notify the MoI trusted agent of fund availability for
        drawing and distribution.

Payroll distribution involves:

        Trusted Agent25 (if MoI is paying), DCoP, ALP commander and members, and shura
         leaders/elders attendance,
        an additional GIROA official, e.g. DCoP, should be present to assist with and verify
         distribution,
        members verified via photograph and biometric data, and issued weapon checked by
         serial number,
        member receives cash and signs or places thumb print next to M-4126 listing to
         acknowledge receipt of pay, and
        Operational Detachment-Alpha (ODA) team members escort the MoI Trusted Agent to
         the distribution site and observe the process.

CFSOCC-A J8 maintains a spreadsheet as a record of monthly ALP salaries paid by:

        province,
        district,
        number of ALP members on hand and paid,
        fund source (CERP or ASFF),
        payer—Trusted Agent, EFT, or CFSOCC, and
        amount paid in U.S. dollars.

In the DoDIG assessment team’s judgment, this process appears to be an effective means of
ensuring salary payments are made to the appropriate ALP members, with an adequate audit trail
for oversight and fund accountability, within the payroll process overseen or participated in by
Coalition partners in the field.




25
   A Trusted Agent is designated by the MoF; he is authorized to draw and distribute monies for intended purposes,
in this instance, ALP salaries.
26
   The M-41 lists approved members by name and a breakdown of entitlements and deductions—base pay, food
stipend, taxes, and deduction for days missed.


                                                        58
However, as discussed below, oversight of MoI payroll expenditures at the ministerial level is
supposedly hampered by GIRoA law and procedure. The effectiveness of ALP payroll
reconciliation efforts at the ministerial level by either the MoI or the Coalition is unclear.

ASFF funds are transferred monthly into a MoI account in a bulk amount, with no separate
division by purpose; subsequent MoI account transactions use coding to identify the nature of an
expenditure, e.g. ALP salary.

The MoF-41 (M-41) report used to document monthly payroll could be used to reconcile each
ALP salary distribution against the ASFF deposit amount. However, reportedly in accordance
with GIRoA law, the MoF may release the M-41 report to only one office within a ministry,
which in turn may not share this form with any other office within that department.

NTM-A/CSTC-A and CFSOCC-A personnel were uncertain whether they had access to the
M-41 report. Without access to this report, neither the Coalition nor the MoI would be able to
fully reconcile what was transferred to the MoI from NTM-A/CSTC-A against what was actually
disbursed to ALP members. At the level of NTM-A/CSTC-A and the MoI, it would be difficult
to determine if:

        duplicate payments were made,
        “ghost” employees27 were paid, and
        the ALP person paid was eligible to receive the money.

Although the use of a Trusted Agent, with Coalition oversight, follows the MoI payroll process,
thereby theoretically preventing duplicate or “ghost” payments, the M-41 report is a necessary
element of the reconciliation process to ensure such payments are not made. Lack of routine
access to the monthly M-41 reports creates a significant gap in the audit trail for Coalition and
MoI assurance of ASFF accountability.

Problems associated with the relatively few ALP personnel on EFT payroll payments are
discussed in Observation 12. In at least one district, Coalition forces expressed concern that
ALP EFT salary payments made could not be validated against known members on the roster.
Reconciliation of the M-41 report and pay rosters is essential to ensure duplicative payments are
not made when ALP members are on EFT and are not physically vetted during monthly pay
distributions.

Based on our review of Coalition guidance and discussion with CFSOCC-A J8 and United States
Marine Corps personnel, the overall payroll oversight process, as currently implemented by the
command, appears to be an effective means of ensuing proper payment of ALP members and
accountability for U.S. funds. However, the lack of access to M-41 reports in order to compare
MoI reported disbursements via EFT against other payroll and personnel roster documentation
presents problems for the command, MoI, and ANP with respect to their ability to achieve a
similar level of accountability and assurance.




27
   A “ghost” employee is a real or fictional name listed for pay and other purposes but not associated with an actual
person.


                                                         59
Recommendations
11.a Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan, in coordination with International
Security Assistance Force Joint Command and the Combined Forces Special Operations
Component Command-Afghanistan, coordinate with the Ministry of Interior to improve timely
incorporation of Afghan Local Police Recruits into the Ministry of Interior payroll system.

11.b. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan, coordinate with the Ministry of Interior
Finance Office to:

    (1.) Determine the impact of restrictions supposedly imposed by Government of the
Islamic Republic of Afghanistan law on availability of the Ministry of Finance 41 (M-41)
report.

   (2.) Reconcile the Afghan Local Police salary payment account with Coalition Partner
Forces disbursements to prevent duplication of payments to individual Afghan Local Police or
payments to “ghost” personnel.


Management Comments
NTM-A/CSTC-A concurred with Recommendation 11.a. DCOM-SOF ALP advisors are now
mentoring the ALP Headquarters G1 and the ALP Finance officer to develop reporting
procedures and are represented in MoI assessment teams that are used to ensure timely and
accurate reporting of attendance and payroll.

NTM-A/CSTC-A concurred with Recommendation 11.b. (1). Coalition access to the M-41
(payroll listing) should be given to the NTM-A/CSTC-A CJ8 for reconciliation supported by the
ALP Headquarters’ Finance Officer’s review of payments made. An ALP Headquarters
assessment team review will verify statistical samples of the payroll rosters as part of the ALP
Command Review process on-site at district ALP locations. The inclusion of MoF sub-
allocation codes for the ALP salaries for SY 1391 will allow electronic retrieval of all salary
payments and subject them to oversight by the ALP Finance Officer.

NTM-A/CSTC-A concurred with Recommendation 11.b. (2). The MoI Headquarters ALP
assessment team will verify and review statistical samples of the payroll rosters (M-41) as part of
the ALP Command Review process. The ALP Assessment team includes a member of the MoI
ALP HQ finance section familiar with the ALP pay process.

Our Response
NTM-A/CSTC-A comments were responsive to all three recommendations in Observation 11.
We will request an update in 6 months on the status of MoI payroll support to the ALP, the
availability of the M-41 (payroll listing) to the NTM-A/CSTC-A CJ8, and the status/outcome of
the MoI ALP Headquarters statistical sampling of those rosters.




                                                60
Observation 12. Afghan Local Police and the Electronic Fund
Transfer Pay System
Although cash payment by a trusted agent at the district level is the approved MoI method for
paying ALP personnel, at least one district is paid via EFT.

This occurred because officials at the provincial level had “rebranded” former AP3 personnel as
ALP and assigned them against district ANP Tashkil, paying them separately from the
standardized ALP procedures. (See Observation 14.)

Aside from defeating the intent of the plan to pay ALP through the MoI chain of command,
reinforcing the link from village to district to province to GIRoA, use of EFT vice trusted agent
payments further negated district command and control of ALP, and caused confusion among
U.S. SOF partners and the DCoP at that location. Moreover, the DCoP and Coalition partners in
the district using EFT reported that a significant percentage of “ghost soldiers” were being paid,
a corrupt practice.

Applicable Criteria (See Appendix C, Numbers 4 and 19, for additional details.)

      CFSOCC-A “Partner Force SOP for MoI Pay/Afghan Local Police (ALP) Pay Process,”
       September 30, 2011.
      Memorandum of Agreement between NATO Training Mission–Afghanistan and
       Combined Forces Special Operations Component Command–Afghanistan on Use of
       Afghanistan Security Forces Fund for the Afghan Local Police, August 10, 2011.

Discussion
 Figure 1 describes the MoI pay process for the ALP. This process is a physical pay method
using “trusted agents” for disbursing pay to the ALP.

The use of the trusted agent to pay ALP personnel is different than the EFT system generally
used to pay other ANP personnel. While other members of the ANP are in contact with their
superiors several times a week, facilitating command and control and accountability of personnel
and equipment, ALP personnel may only see the DCoP once a month, and then only if they have
to report to district headquarters to receive pay. Although EFT has distinct advantages, such as
eliminating the necessity to provide security to move cash and personnel around the districts,
CFSOCC-A supports the trusted agent system because it requires a physical presence of the ALP
personnel at the district headquarters. Reasons supporting the manual ALP pay system include:

      elimination of “ghost” personnel, a problem described in Observation 14,
      DCoP accountability of weapons and MoI identification cards,
      not all ALP personnel have cellular phones, which is the primary medium for conduct of
       EFT,
      banking facilities often not available/proximate in the rural areas served by the ALP,
      strengthening of the chain of GIRoA authority link between the village and district, on
       through the province to the MoI/central government, and
      oversight of the ALP pay process at the district headquarters by Coalition partners.




                                                61
Figure 7. Afghan Local Police Payroll Process                            Source: NTM-A/CSTC-A

In principle, NTM-A/CSTC-A would prefer the ALP to be on the EFT system, which is utilized
for approximately 77 percent of the ANP. They cite advantages as:

       no requirement to transport large sums of cash to remote and sometimes isolated sites to
        physically pay ALP personnel,
       prevention of theft and robbery at various points in the transportation and pay process,
        and
       faster processing/disbursal of approved funds.

As noted, there are a number of advantages and disadvantages to both methods of ALP pay
disbursement. If the banking system in Afghanistan matures and extends into the largely rural
areas policed by the ALP, it may be possible and desirable to go to an EFT system. However,
the current ALP pay process approved by the MoI, and supported by CFSOCC-A and
U.S./Coalition partners in the field, is the manual trusted agent system.

Although the DoDIG team did not determine what other ALP locations were paid by EFT,
indications are that there are few. At least in one district visited, the DCoP and the U.S. partners
reported that the EFT payment system in use there was problematic. (See Observation 14.)




                                                 62
Recommendation
12. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/Combined
Security Transition Command-Afghanistan, in coordination with International Security
Assistance Force Joint Command and the Combined Forces Special Operations Component
Command-Afghanistan, coordinate with the Ministry of Interior to terminate Electronic Fund
Transfer payments to Afghan Local Police personnel, replacing it with the Ministry of Interior-
approved trusted agent system.

Management Comments
NTM-A/CSTC-A non-concurred with the recommendation, noting that terminating the EFT
system will have an adverse impact in those Afghan locations that currently have mature banking
systems in which ALP members can access banking services without incurring undue travel or
risk. Accordingly, they recommended that the current EFT system be continued in those
locations and that the Trusted Agent system be employed at new locations. However, they also
noted that the matter is situation dependent and that both systems should be maintained to permit
the flexibility to use either system as the situation warrants.

CFSOCC-A also non-concurred. They agreed with NTM-A/CSTC-A that existing ALP EFT
sites continue in the current status quo and that all new locations being brought on utilize the
Trusted Agent system. CFSOCC-A reports that the only ALP locations using EFT are Kabul,
Kandahar City, and Herat and that the financial infrastructure at those locations can support EFT.

Our Response
We accept NTM-A/CSTC-A’s and CFSOCC-A’s non-concurrence and their reasoning for
maintaining EFT as the pay system at ALP locations in Kabul, Kandahar City, and Herat, while
using the “trusted agent” system at all other ALP locations. At the time of our field work, there
were “rebranded” former AP3 personnel assigned as ALP in a district in Wardak Province.
Interviews with both ANP leadership and CFSOCC-A partners at that location indicated that the
“rebranded” personnel were not from the district and were paid via EFT, complicating effective
command and control of the ALP in the district, for reasons discussed in Observation 12, above.
However, IJC comments to Recommendation 14.a indicated that the situation in that district in
Wardak Province has been corrected. No further action is required.




                                               63
Observation 13. Ministry of Interior Afghan Local Police
Policy/Guidance
Current MoI policy and implementing guidance is vague regarding roles, responsibilities, and
authority of PCoPs and DCoPs over the ALP program.

The ALP program is in its infancy and the MoI has not yet put sufficient emphasis on
development of implementing guidance and procedures.

This has caused individual PCoPs and DCoPs to support implementation of the ALP program as
they see fit, leading to inconsistent support of the program across the provinces and districts.
This could cause ALP units to fall under the sway of local power brokers or warlords. It will
likely complicate the expansion of the program to 30,000 personnel at approximately 99 sites
throughout the country and could hinder ALP program sustainability.

Applicable Criteria (See Appendix C, Numbers 1, 22, 23, and 24, for additional details)

        Afghan Presidential Decree No. 3196, Office of the President, Government of the Islamic
         Republic of Afghanistan, August 16, 2010.
        MoI, Office of the Senior Deputy of Security, Department of the Afghan Local Police,
         “Afghan Local Police Establishment Procedure,” Updated March 2011.
        MoI Order Memo NO: (7158), Receipt#: (7134), “Afghan Local Police Establishment
         Procedure,” August-September 2010.
        NTM-A/CSTC-A “Afghan Local Police (ALP) Ministerial Development Plan,” March
         2011.

Discussion
Aside from the traditional “arbaki”28, two previous community-policing initiatives in
Afghanistan, endorsed by ISAF and the MoI, were the:

        Afghan Auxiliary Police (AAP), orchestrated through the Afghan MoI in 2007, and
        Afghan Public Protection Program (AP3) in 2009, also under MoI. The AP3 sought to
         correct problems associated with the AAP and was heavily supervised and supported by
         the MoI, with training and equipment being provided by ISAF.

Both of these programs reportedly suffered from problems concerning corruption, abuse of
authority, weak command and control, and tenuous ties to GIRoA.

Proponents of the ALP point to safeguards designed to minimize such problems, such as:

        MoI control over the ALP, via the DCoP, who provides pay, weapons, ammunition,
         supplies, and equipment,
        village shura (council) nomination and vetting of ALP recruits,

28
  Independent, local militias, often loyal to village elders or a local warlord. They usually have had no ties to
GIRoA.


                                                          65
      assigned ALP personnel responsibility to defend their village and families, and
      training and partnering by/with Coalition SOF/selected conventional forces.

An assumption in the creation of the
ALP appeared to be that the DCoP
will be willing and able to
consistently support and provide
command and control of ALP forces,
despite weak logistical capability and
command and control structures
within the ANP itself. Furthermore,
the ALP forces often have separate,
informal channels to powerful
government officials and local
officials who can directly support
them, their operations, and their
recruitment. Numerous GIRoA and
MoI officials voiced concern that the
ALP, if not properly supported and              Figure 8. Meeting with District ALP Officials
supervised, could become another local
militia under the sway of a local power broker or warlord, actually complicating GIRoA attempts
to govern effectively.

The MoI directive creating the ALP and subsequent MoI decrees/directives are imprecise about
the roles and responsibility, authority and procedures associated with the ALP including:

      ALP right to search,
      where individuals can/should be detained,
      length and conditions of detention, and the
      process for transferring detainees to the ANP.

The ALP is now more than a year old. The original 2010 GIRoA/MoI plan, endorsed by ISAF,
envisioned the ALP program lasting for five years. That ALP plan lacks clear guidelines for the
planned demobilization or transfer of ALP members to the national police or other security
organizations when the ALP program is complete.

This situation is further complicated by the lack of clear written guidance to the PCoP and DCoP
as to their responsibilities to the ALP for training, equipping, resupply, pay, and coordination
with the AUP. This has led to widely divergent interpretations as to what the PCoP and DCoP
should do regarding command, control, and support of the ALP.

The Afghan National Security Council recommendation to the Afghan President for adoption
and issuance of the Decree ordering the development and implementation of the Afghan Local
Police states:

       Local police, under direct management of the Ministry of Interior, with support of sub-national
       authorities (Provincial Chiefs of Police and District Chiefs of Police) and the guarantee of people's
       shuras, after precise and comprehensive study all over the country in the areas facing an ongoing
       threat, are established under the official structure of the Ministry of Interior. The Afghan Local
       Police will perform their role as the first line of security to better defend districts and residential


                                                         66
        areas. Intelligence wise, this measure will enjoy the full support of National Directorate for
        Security in order to avoid the infiltration of terrorists. The maximum structure considered for
        Local Police is up to 10 thousand; this increase is in addition to the determined structure of the
        Afghan National Police agreed in the Joint Coordination and Monitoring Board. This plan drafts a
        comprehensive framework for unification of the activities implemented under different titles such
        as the program in Wardak province. In each district, there will be brigades and platoons of local
        police considered according to the security needs. The Ministry of Interior is responsible for the
                                                          29
        management and structure of the local police.

The MoI Order Memo NO: (7158), Receipt#: (7134), “Afghan Local Police Establishment
Procedure,” establishing the Afghan Local Police, states in Article 4, “The ALP department will
be established within the Deputy Ministry for Security that is responsible for the ALP’s
command and control at provincial and district levels.” The article also states, “The Provincial
Chief of Security, District Chief of Police and ALP Commanders are responsible for managing
ALP operations.”

Article 13 states:

        ALP will be established under direct management and leadership of MoI and ANP in the areas
        under enemy threat after the support and assurance from public shuras (councils), and after
        scrutiny by intelligence organizations throughout the country, especially in the areas under direct
        enemy threat.30

The NTM-A/CSTC-A “Afghan Local Police (ALP) Ministerial Development Plan,” provides
some additional information. This document is a co-signed NTM-A/MoI Afghan Local Police
document and intended for background, coordination, and concept of support for the
development of the ALP among United States and Coalition organizations. It makes
assumptions regarding the command, control structure of the Afghan Local Police, and was
coordinated through the Commander, ALP, at the MoI.

The NTM-A/CSTC-A “Afghan Local Police (ALP) Ministerial Development Plan” states:

        Command and Control of ALP will reside within the MoI Headquarters. The MoI will use the
        Afghan Uniform Police (AUP) District Police Chief to command ALP. Support services, to
        include but not limited to, administrative, intelligence, operations, supply, plans,
        communications, finance and training, will be the responsibility of the existing District,
                                                                         31
        Province, Region and National ANP/AUP Headquarters staff.

The NTM-A/CSTC-A slide shown below depicts three ALP positions in the ALP Command and
Control Structure at the AUP District Headquarters.




29
   GIRoA NSC Joint Proposal of the Assigned Security Committee for the Local Police Structure of Ministry of
Interior Affairs, p.2, para 3.1, Jul/Aug 2010.
30 Ministry of Interior, Senior Deputy Ministry of Security, Department of Afghan Police, p. 10, Article 13,
18/10/1389 (Dari Calendar).
31
   Afghan Local Police Ministerial Development, Plan, Concept, Mission Capabilities and Limitations, p. 5, Para 9,
March 2011, NTM-A/CSTC-A.


                                                         67
Figure 9. ALP District Command and Control                                          Source: NTM-A/CSTC-A

The NTM-A/CSTC-A “Afghan Local Police (ALP) Ministerial Development Plan” further
states:

        The MoI ALP Headquarters, led by the ALP Chief, is responsible for ensuring the organization,
        policy, plans, and programs for the ALP as well as advising the Deputy Minister of Security and
        ministerial staff on matters involving the ALP. Under the authority of the MoI, the ALP Chief
        assists with the personnel, logistics, and resources for the ALP districts. 32

These references use the term “ANP” or “AUP”, and mention the “Provincial Chief of Security,
(normally the PCoP) and DCoP, but fail to delineate their specific responsibilities in the
command and control and support structure.

In meetings with Coalition ALP partners and ALP leaders, the DoDIG team noted varying
degrees of PCoP and DCoP understanding of and support for the ALP program. In at least one
instance, a DCoP was actively impeding the ALP implementation process. (That individual has
since been relieved of his duties, which took over a year.) Implementation procedures varied
from one ALP site to another. Those ALP locations that were most successful enjoyed full
support from the PCoP and DCoP and were supported with MoI procedures applicable to the
AUP in the district. Likewise, the ALP in those locations with strong PCoP and DCoP support
seemed more apt to identify a link to GIRoA through those individuals. That said, lack of clear
written guidance from MoI to PCoPs and DCoPs regarding their responsibilities for the ALP
program and to ALP units has led to inconsistent support at some locations and can be expected
to jeopardize efforts to expand the program.


32
   Afghan Local Police Ministerial Development Plan, Concept, Mission, Capabilities and Limitations, p. 6, Para
15, March 2011, NTM-A/CSTC-A.


                                                       68
Recommendations
13.a. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan, in coordination with the International
Security Assistance Force, and the Combined Forces Special Operations Component
Command-Afghanistan, mentor the Ministry of Interior to publish a decree outlining the goals
and procedures relevant to the Afghan Local Police Program, that includes Provincial Chief of
Police and District Chief of Police responsibilities for the program.

13.b. Commander, Combined Forces Special Operations Component Command-Afghanistan,
in coordination with the International Security Assistance Force Joint command, direct
Coalition Afghan Local Police partners to ensure that their counterparts at Provincial, District,
and village program levels receive and understand Ministry of Interior Afghan Local Police
policy and to report any shortcomings in implementation through the appropriate Coalition
chain of command.

Management Comments
NTM-A/CSTC-A concurred with Recommendation 13.a, as written, providing no additional
comments.

CFSOCC-A concurred with Recommendation 13.b. They agree that the current MoI
Establishment Procedures are imprecise. Remediation of this issue will require a MoI cipher
(order) acknowledging that the ANP police laws apply to the ALP. ISAF FRAGO 055-2012,
“COMISAF’s Vision and Guidance on the Future of the Afghan Local Police,” published on
April 3, 2012, directs CFSOCC-A to gain MoI support for this cipher, which is currently being
drafted. A proposed update to the Establishment Procedures is also being staffed with ISAF and
MoI.

Our Response
NTM-A/CSTC-A comments to Recommendation 13.a were responsive, as were CFSOCC-A
comments to Recommendation 13.b. We request a copy of the MoI cipher directing that ANP
police laws apply to the ALP and a copy of the updated MoI Establishment Procedures, when
published.




                                                69
Observation 14. Former Afghan Public Protection Program
Personnel
Former Afghan Public Protection Program (AP3) personnel in at least one province were being
“re-branded” at the provincial level as ALP and assigned against ALP district Tashkils, but
without the knowledge/approval of district AUP leaders, village elders, or U.S. SOF personnel.

The AP3 program ended in FY 2011. AP3 personnel had been performing critical security
functions in several areas in that province, to include checkpoint duty along Highway 1. The
PGOV indicated he still needed personnel to secure Highway 1. He also reportedly had to find a
mission for the former AP3 personnel, who had some security-related training, experience, and
skills. With the apparent approval of the MoI, he “rebranded” former AP3 personnel as ALP,
bypassing the vetting required by local district officials and village elders, as well as the training
required by the ALP Program of Instruction.

This resulted in police personnel claiming to be ALP performing security-related duties in areas
of the province, to include checkpoints along Highway 1, who are not from the district or
villages in that area. The rebranded ALP were not trusted by the local villagers and elders and
encumber district ALP Tashkil authorizations. Furthermore, this could eventually prevent
properly vetted and trained local villagers from participating in ALP and erode village leaders’
confidence in the program.

Applicable Criteria (See Appendix C, Numbers 3, 10, 11, 13, 16, 22, 23, and 26, for
additional details.)

       Army Field Manual 3-24/Marine Corps Warfighting Publication 3-33.5,
        “Counterinsurgency,” December 2006.
       DoD Instruction 3000.5, “Stability Operations,” September 16, 2009.
       DoD Instruction 5000.68, “Security Force Assistance (SFA),” October 27, 2010.
       IJC FRAGO 515-2010, "Establishment of the ALP Program," undated. (Classified
        document.)
       ISAF FRAGO 205-2010, "Afghan Local Police," September 16, 2010. (Classified
        document.)
       MoI, Office of the Senior Deputy of Security, Department of the Afghan Local Police,
        “Afghan Local Police Establishment Procedure,” Updated March 2011.
       MoI Order Memo NO: (7158), Receipt#: (7134), “Afghan Local Police Establishment
        Procedure,”August-September 2010.
       USFOR-A FRAGO 10-287, “Guidance for the Afghan Local Police Program,"
        September 5, 2010. (Classified document.)

Discussion
During a visit to a recently established district VSO in a province, the AUP DCoP and the U.S.
SOF team leader stated that they had only trained 12 ALP from the district. Local village elders
had vetted these 12 personnel and the process was underway to vet and train more ALP at that
location. However, the DCoP pointed that an additional 118 personnel, calling themselves ALP
and in ALP uniforms, were manning checkpoints along Highway 1. Although assigned against



                                                  71
the district’s ALP Tashkil, neither he nor the village elders knew who these personnel were as
they were not from his district. However, he had copies of the appropriate fund disbursement
paperwork and knew that they were paid MoI as ALP via the EFT system. The DCoP had no
idea who had authorized their presence and who was verifying that these personnel were actually
present and performing their jobs. The U.S. SOF team leader stated that they had used the names
on the pay documents to attempt a head count at the various Highway 1 checkpoints in the
district on several occasions and suspected that, on average, only about 50 percent of them were
actually there. Both the DCoP and the U.S. SOF team leader opined that they could solve the
                                                        potential “ghost” problem if these
                                                        checkpoint ALP personnel were taken off
                                                        EFT and required to report to the district
                                                        headquarters, with their issued weapon and
                                                        appropriate identification, for pay. (The
                                                        majority of ALP across Afghanistan were
                                                        being paid cash on a monthly basis at
                                                        district headquarters by a trusted agent,
                                                        with U.S. oversight. This process allows
                                                        the DCoP to verify the presence of district
                                                        ALP personnel and account for their
                                                        weapon and other equipment.)
                                                                       Figure 10. A Village Stability Operation Site




The AP3 is one of several local security programs33 that ISAF and GIRoA initiated in the past to
bring an acceptable level of security to the districts. As with most of these programs, the AP3
had some success, but encountered problems. As a result, the AP3 was disbanded in 2011. The
issue then was what to do with those armed personnel with no current GIRoA employment
possibilities, in order to provide them a viable option to possibly fighting for the enemy.

After additional investigation, it was determined that the ALP on the Highway 1 checkpoints
were former AP3 personnel who had been “rebranded” as ALP by the PGOV, with the apparent
approval of the MoI, in coordination with ISAF.

All of the Coalition and GIRoA personnel with whom we spoke agreed this conversion was the
right thing to do, but the execution had to be done correctly. The former AP3 personnel had to
be vetted by village elders, properly trained via the ALP Program of Instruction, and assigned
against ALP Tashkils, all in their home districts. While manning checkpoints along Highway 1
is likely a valid requirement, it should be done with ANSF personnel external to the ALP
program, unless use of ALP personnel to man such a checkpoint contributed directly to the
mission of securing their home village.

This is not what occurred in the district in question. The former AP3 personnel, according to
the DCoP and his Coalition partners, had not gone through the proper training and vetting
required by the ALP program and had been assigned to areas outside of their home districts.


33
   Others include the Afghan National Auxiliary Police, Afghan Public Protection Force, Community Defense
Initiative, Local Defense Initiative, and Community Based Security Support, and Interim Security for Critical
Infrastructure.


                                                        72
While it is appropriate to convert personnel from former local security programs to the ALP, it
must be done in accordance with published MoI procedures specific to the ALP program.
Failure to follow these procedures will resurrect issues and problems that plagued the previous
local security programs, to include:

      lack of trust by local Afghans,
      co-option by local power brokers,
      unacceptable levels of corruption, and
      no coherent, clearly defined chain of command.

Recommendations
14.a. Commander, International Security Assistance Force Joint Command, in coordination
with North Atlantic Treaty Organization Training Mission-Afghanistan/Combined Security
Transition Command-Afghanistan, Combined Forces Special Operations Component
Command–Afghanistan, coordinate with the Ministry of Interior to end “rebranding,” as was
practiced in the province previously described.

14.b. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan, in coordination with International
Security Assistance Force Joint Command and Combined Forces Special Operations
Component Command–Afghanistan, mentor the Ministry of Interior to develop a plan to
incorporate qualified Afghan Public Protection Program and other similar security related
personnel into the Afghan National Security Forces, ensuring that all vetting, training,
equipping, assignment requirements, and pay procedures are met.




                                               73
Management Comments
IJC concurred with Recommendation 14.a. The ISAF Commander directed a review of the
adequacy of the partnering model used by the Battle Space Owner in December 2012 and the one
district in which the AP3 guards were “rebranded” as ALP was formally disbanded. There is no
longer provincial-level recruiting of ALP for this district or any other district. At the
disbandment ceremony, Afghan leaders from the villages, district, province, and MoI defined the
roles and responsibilities of the ANSF as they relate to the ALP. They also outlined the correct
methods for establishing an ALP site in accordance with MoI decrees and procedures. A 100
percent accountability of personnel, weapons, and equipment was conducted and the district was
then re-validated by the MoI as an ALP location. There are no remaining AP3 entities. As other
Coalition controlled Local Security Forces disband, such as Critical Infrastructure Protection in
RC-N, Community Based Security solutions in RC-S, and Interim Security for Critical
Infrastructure in RC-SW, personnel in those organizations will compete as individuals for
subsequent employment opportunities in the ANSF or the Afghan Public Protection Forces
(APPF), in accordance with ISAF FRAGO 045-2012 and IJC FRAGO 135-2012. Should they
want to become ALP in their districts, they will be vetted and processed in accordance with ALP
establishment procedures.

NTM-A/CSTC-A concurred with Recommendation 14.b. However, NTM-A/CSTC-A noted that
they would mentor, not assist, the MoI to publish a decree outlining the goals and procedures
relevant to the Afghan Local Police Program that includes Provincial Chief of Police and District
Chief of Police responsibilities for the program.

Our Response
IJC comments to Recommendation 14.a were responsive. We request a copy of ISAF FRAGO
045-2012 and IJC FRAGO 135-2012.

NTM-A/CSTC-A comments to Recommendation 14.b were responsive. We modified the
recommendation to use the word “mentor” vice “assist.” We ask that NTM-A/CSTC-A clarify
the status of MoI planning in coordination with ISAF FRAGO 045-2012 and IJC FRAGO
135-2012, referenced above.




                                               74
Appendix A. Scope, Methodology, and
Acronyms
We conducted this assessment from August 2011 to February 2012 in accordance with the
standards published in the Quality Standards for Inspections. We planned and performed the
assessment to obtain sufficient and appropriate evidence to provide a reasonable basis for our
observations and conclusions, based on our assessment objectives. Site visits in Afghanistan
were conducted from October 18 to November 7, 2011.

We reviewed documents such as Federal Laws and regulations, including the National Defense
Authorization Act, Chairman of the Joint Chiefs of Staff instructions, DoD directives and
instructions, and appropriate U.S. Central Command, NATO/ISAF, IJC, USFOR-A,
CFSOCC-A, NTM-A/CSTC-A, and MoI guidance.

The objectives of this assessment were to determine whether the planning and operational
implementation of efforts by US/Coalition Forces to recruit, train, advise, and assist in the
development of the Afghan Local Police (ALP) were effective. This included evaluating
output/outcome at ALP locations at various stages of their life cycle to determine the
effectiveness of U.S./Coalition involvement in developing the ALP and MoI capability to
manage the program.

We also visited or contacted organizations and individuals in the U.S. and Afghanistan that were
directly responsible for, or advise the commanders responsible for, developing the ALP. We
reviewed the programs and processes used in the development and function of the ALP program
and spoke with appropriate U.S./Coalition and Afghan leaders and managers at all levels,
ranging from general officers, to staff officers, to Coalition SOF/conventional force ALP
partners in the field.

The ANA logistics assessment chronology was as follows:

August–mid-October 2011                       Research and fieldwork in CONUS
October 18–November 7, 2011                   Fieldwork in Afghanistan
November 6, 2011                              Out Brief to IJC, CFSOCC-A, and
                                              NTM-A/CSTC-A
November 2011–April 2012                      Analysis, report writing, and reviews
April 19, 2012                                Draft report issued
May 21–June 14, 2012                          Management comments received, evaluated, and
                                              reviewed
July 9, 2012                                  Final report issued

Limitations
We limited our review to DoD-funded programs, NATO-funded programs, and international
donation programs supporting the development of the ANA logistic capability.

Use of Computer-Processed Data
We did not use computer-processed data to perform this assessment.


                                                 75
Use of Technical Assistance
We did not use Technical Assistance to perform this assessment.

Acronyms Used in this Report
The following is a list of the acronyms used in this report.
AAP                   Afghan Auxiliary Police
ALP                   Afghan Local Police
ANA                   Afghan National Army
ANP                   Afghan National Police
ANSF                  Afghan National Security Forces
AP3                   Afghan Public Protection Program
AUP                   Afghan Uniformed Police
CERP                  Commander’s Emergency Relief Program
CFSOCC-A              Combined Forces Special Operations Component Command-Afghanistan
CSTC-A                Combined Security Transition Command-Afghanistan
DCOM                  Deputy Commander
DCoP                  District Chief of Police
DGOV                  District Governor
EFT                   Electronic Fund Transfer
FRAGO                 Fragmentary Order
GIRoA                 Government of the Islamic Republic of Afghanistan
IJC                   ISAF Joint Command
ISAF                  International Security Assistance Force
IO                    Information Operations
KTD                   Key Terrain District
MoD                   Ministry of Defense
MoI                   Ministry of Interior
NATO                  North Atlantic Treaty Organization
NTM-A                 NATO Training Mission-Afghanistan
ODA                   Operational Detachment Alpha
PGOV                  Provincial Governor
PCoP                  Provincial Chief of Police
PKM                   Pulemyot Kalashnikova Machinegun
PRO                   Provincial Recruiting Officer
PSP                   Provincial Supply Point
RC                    Regional Command
RPG                   Rocket Propelled Grenade
RLC                   Regional Logistics Center
SOF                   Special Operations Forces
SOPLE                 Special Operations Liaison Element
VSO                   Village Stability Operations


                                              76
VSP       Village Stability Platform
USFOR-A   U.S. Forces-Afghanistan




                                       77
Appendix B. Summary of Prior Coverage
During the last four years, the DoD, the Government Accountability Office (GAO), the Special
Inspector General for Afghanistan Reconstruction (SIGAR), the Commission on Wartime
Contracting, the Congressional Research Service, and the DoDIG have issued a number of
reports discussing the development of the MoI and police component of the ANSF.

Unrestricted DoD reports can be accessed at http://www.defense.gov/pubs.
Unrestricted GAO reports can be accessed at http://www.gao.gov.
Unrestricted SIGAR reports can be accessed at http://www.sigar.mil.
Unrestricted Commission on Wartime Contracting reports can be accessed at
http://www.wartimecontracting.gov/index.php/reports.
Unrestricted Congressional Research Service Reports can be accessed at http://www.crs.gov.
Unrestricted DoDIG reports can be accessed at http://www.dodig.mil/audit/reports.
Some of the prior coverage we used in preparing this report has included:

Department of Defense
Report to Congress in accordance with sections 1230 of the National Defense Authorization Act
for Fiscal Year 2008 (Public Law 110-181), as amended, “Report on Progress Toward Security
and Stability in Afghanistan,” October 2011.

Report to Congress in accordance with sections 1230/1231 of the National Defense
Authorization Act for Fiscal Year 2008 (Public Law 110-181), as amended, “Report on Progress
Toward Security and Stability in Afghanistan” and “United States Plan for Sustaining the
Afghanistan National Security Forces,” April 2011.

Report to Congress in accordance with sections 1230 of the National Defense Authorization Act
for Fiscal Year 2008 (Public Law 110-181), as amended, “Report on Progress Toward Security
and Stability in Afghanistan,” November 2010.

Report to Congress in accordance with section 1230 of the National Defense Authorization Act
for Fiscal Year 2008 (Public Law 110-181), “Report on Progress Toward Security and Stability
in Afghanistan,” April 2010.

Report to Congress in accordance with section 1231 of the National Defense Authorization Act
for Fiscal Year 2008 (Public Law 110-181), “United States Plan for Sustaining the Afghanistan
National Security Forces,” April 2010.

Report to Congress in accordance with the 2008 National Defense Authorization Act (Section
1230, Public Law 110-181), “Progress Toward Security and Stability in Afghanistan,” June
2009.

Report to Congress in accordance with the 2008 National Defense Authorization Act (Section
1230, Public Law 110-181), “Progress Toward Security and Stability in Afghanistan,” January
2009.




                                               79
Report to Congress in accordance with the 2008 National Defense Authorization Act (Section
1230, Public Law 110-181), “Report on Progress toward Security and Stability in Afghanistan,”
June 2008.

Report to Congress in accordance with the 2008 National Defense Authorization Act (Section
1231, Public Law 110-181), “United States Plan for Sustaining the Afghanistan National
Security Forces,” June 2008.

Government Accountability Office
GAO-12-293R, “Department of Defense Effort to Train Afghan Police Relies on Contractor
Personnel to Fill Skill and Resource Gaps,” February 23, 2012.

GAO-11-760, “Iraq and Afghanistan: Actions Needed to Enhance the Ability of Army Brigades
to Support the Advising Mission,” August 2, 2011.

GAO-10-842T, “Preliminary Observations on DoD’s Progress and Challenges in Distributing
Supplies and Equipment to Afghanistan,” June 25, 2010.

GAO-10-655R, “Strategic Framework for U.S. Efforts in Afghanistan,” June 15, 2010.

GAO-09-280, “Afghanistan Security: U.S. Programs to Further Reform Ministry of Interior and
National Police Challenged by Lack of Military Personnel and Afghan Cooperation,” March 9,
2009.

GAO-09-263SP, “Securing, Stabilizing, and Developing Pakistan’s Border Area with
Afghanistan,” February 23, 2009.

GAO-08-883T, “U.S. Efforts to Develop Capable Afghan Police Forces Face Challenges and
Need a Coordinated, Detailed Plan to Help Ensure Accountability,” June 18, 2008.

GAO-08-661, “Further Congressional Action May Be Needed to Ensure Completion of a
Detailed Plan to Develop and Sustain Capable Afghan National Security Forces,” June 18, 2008.

Special Inspector General for Afghanistan Reconstruction
(SIGAR)
SIGAR Audit-10-11, “Actions Needed to Improve the Reliability of Afghan Security Force
Assessments,” June 29, 2010.


Commission on Wartime Contracting
Interim Report to Congress, “At What Cost? Contingency Contracting in Iraq and Afghanistan,”
June 10, 2009.

Second Interim Report to Congress, “At what risk? Correcting over-reliance on contractors in
contingency operations,” February 24, 2011.




                                              80
Final Report to Congress, “Transforming Wartime Contracting—Controlling costs, reducing
risks,” August 2011.

Congressional Research Service
“Afghanistan: Post-Taliban Governance, Security, and U.S. Policy,” February 6, 2012.

Department of Defense Inspector General
DoD Report No. D-2011-080/DOS Report No. AUD/CG-11-30, “DoD and DOS Need Better
Procedures to Monitor and Expend DoD Funds for the Afghan National Police Training
Program,” July 7, 2011.

DoDIG Report No. D-2010-042, “DoD Obligations and Expenditures of Funds Provided to the
Department of State for the Training and Mentoring of the Afghan National Police,” February 9,
2010.

DoDIG Report No. SPO-2009-007, “Assessment of U.S. and Coalition Plans to Train, Equip,
and Field the Afghan National Security Forces,” September 30, 2009.

DoDIG Report No. D-2009-100, “Afghanistan Security Forces Fund Phase III–Accountability
for Equipment Purchased for the Afghanistan National Police,” September 22, 2009.

DoDIG Report No. SPO-2009-006, “Assessment of the Accountability and Control of Arms,
Ammunition, and Explosives (AA&E) Provided to the Security Forces of Afghanistan,”
September 11, 2009.

DoDIG Report No. SPO-2009-001, “Assessment of Arms, Ammunition, and Explosives Control
and Accountability; Security Assistance; and Sustainment for the Afghan National Security
Forces,” October 24, 2008.

DoDIG Report No. IE-2007-005/DoS Report No. ISP-I-07-34, “Interagency Assessment Of the
Counternarcotics Program in Afghanistan,” July 2007.

DoDIG Report No. IE-2007-001/DoS Report No. ISP-IQO-07-07, “Interagency Assessment of
Afghanistan Police Training and Readiness,” November 2006.




                                              81
Appendix C. Criteria—Government of the
Islamic Republic of Afghanistan/U.S. Policy and
MoI/DoD Policy
1.   Afghan Presidential Decree No. 3196, Office of the President,
     Government of the Islamic Republic of Afghanistan, August 16, 2010.
     This document is the Afghan President’s approval of the ALP concept and directs the
     MoI to codify the ALP plan, establish a course of action, and to implement the program
     in the field.

2.   Army Field Manual 3-07, “Stability Operations,” October 2008. This
     manual addresses military stability operations in the broader context of United States
     Government reconstruction and stabilization efforts. It describes the role of military
     forces in supporting those broader efforts by leveraging the coercive and constructive
     capabilities of the force to establish a safe and secure environment, facilitate
     reconciliation among local or regional adversaries, establish political, legal, social, and
     economic institutions, and help transition responsibility to a legitimate civil authority
     operating under the rule of law. This manual also provides doctrine on how to leverage
     those capabilities to support a partner nation as part of peacetime military engagement.

3.   Army Field Manual 3-24/Marine Corps Warfighting Publication 3-33.5,
     “Counterinsurgency,” December 2006. This field manual establishes
     doctrine/fundamental principles for military operations in a COIN environment.
     Additionally, it establishes that the most effective force requirement gauge is troop
     density, the ratio of security forces (including the host nation’s military and police forces,
     as well as foreign counterinsurgents) to inhabitants. This field manual also establishes
     that a clear-hold-build operation should be executed in a specific, high-priority area
     experiencing overt insurgent operations and has the following objectives: (1) create a
     secure environment, (2) establish a firm government control of the populace and area,
     and (3) gain the populace’s support.

4.   CFSOCC-A “Partner Force SOP for MoI Pay/Afghan Local Police
     (ALP) Pay Process”, 31 Sep 2011. The purpose of this document is to establish
     a consistent monthly MoI ALP pay date and to develop a standardized ALP pay process
     for Coalition partner forces that can be transitioned for unilateral execution.

5.   CFSOCC-A Memorandum for Record, “Policy and Guidance
     Regarding ALP Medium Crew-Served Weapons,” July 20, 2011.
     Provides CFSOCC-A personnel with an overview of the policy and guidance for ALP
     units to utilize medium weapons such as a PKM.

6.   Combined Security Transition Command – Afghanistan, “Campaign
     Plan for the Development of Afghan National Security Forces,”
     September 20, 2008. This document provides an overarching strategy for the
     development of the Afghan Security Forces, to include the MoD and the MoI. "The end


                                              83
      state for Phase 3 is national military forces and police services correctly configured and
      resourced for the security needs of the country. The forces will be postured to defend
      national independence, sovereignty and territorial integrity against prospective enemies,
      with internal security and law enforcement bodies capable of sustaining themselves either
      unilaterally or with the international community's support."

 7.   CSTC-A Memorandum “Policy for Planning, Resourcing and
      Executing Afghanistan Security Forces Fund (ASFF),” April 5, 2011.
      This guidance requires transparency, accountability, and oversight (including audit trails)
      of ASFF monies in support of the ANSF. The guidance is applicable to NTM-A/
      CSTC-A units, ISAF, IJC, CFSOCC-A, and subordinate RCs.

 8.   DepSecDef Memorandum “Management of the Afghanistan Security
      Forces Fund,” November 12, 2009. This guidance gives the Commander,
      CSTC-A, overall responsibility for ASFF use in support of the ANSF, with related
      designees for funding expenditures, distribution, and financial reporting.

 9.   DoD Directive 3000.7, “Irregular Warfare (IW),” December 1, 2008. Para
      4.e.2-4 states that the Department of Defense must be able to:

            Extend U.S. reach into denied areas and uncertain environments by operating with
             and through indigenous foreign forces.
            Train, advise, and assist foreign security forces and partners at the ministerial,
             service, and tactical levels to ensure security in their sovereign territory or to
             contribute forces to operations elsewhere.
            Through direct or indirect means, and on a large scale when required, support a
             foreign government or population threatened by irregular adversaries.

10.   DoD Instruction 3000.05, “Stability Operations”, September 16, 2009.
      This Instruction provides guidance on stability operations and will evolve over time as
      joint operating concepts, missions, and lessons learned aid in the development of DoD
      policy and assignment of responsibility for the identification and development of DoD
      capabilities to support stability operations.

11.   DoD Instruction 5000.68, “Security Force Assistance (SFA),” October
      27, 2010. This Instruction establishes policy and assigns responsibilities regarding the
      preparation of DoD personnel and operational planning for, as well as the conduct of,
      security force assistance across the DoD. It also establishes that security force assistance
      shall encompass DoD efforts to support the professionalization and the sustainable
      development of the capacity and capability of the foreign security forces and supporting
      institutions of host countries, as well as international and regional security organizations.

12.   DoD 4140.1-R, “DoD Supply Chain Material Management Regulation,”
      May 23, 2003. This regulation implements DoD Directive 4140.1 and establishes
      requirements and procedures for DoD material managers and others who need to work
      within or with the DoD supply system.




                                               84
13.   IJC FRAGO 515-2010, "Establishment of the ALP Program,"
      (undated). (Classified document.)

14.   IJC, FRAGO 515.01-2010, Amendment 01 to HEADQUARTERS IJC
      FRAGO 515-2010 FRAGO, “Establishment of the ALP Program,”
      December 3, 2010, classified document. (Classified document.)

15.   ISAF FRAGO 164-2011, 2011 “Updated Guidance on ISAF Support to
      the Afghan Local Police Program,” June 7, 2011. (Classified document.)

16.   ISAF FRAGO 205-2010, "Afghan Local Police," September 16, 2010,
      classified document. (Classified document.)

17.   Joint Publication 3-05, “Special Operations,” April 18, 2011.
      CFSOCC-A’s designation as the Executive Agent and command and control of the
      Coalition’s participation in the ALP program is based on doctrine in this manual.
      Foreign Internal Defense and Security Force Assistance are core SOF missions.

18.   Joint Publication 3-22, “Foreign Internal Defense,” July 12, 2010.
      Foreign Internal Defense is a core SOF mission performed by CFSOCC-A as they
      develop the ALP. “US FID efforts are to support the host nation’s internal defense and
      development.”

19.   Memorandum of Agreement Between NATO Training Mission–
      Afghanistan and Combined Forces Special Operations Component
      Command–Afghanistan on Use of Afghanistan Security Forces Fund
      for the Afghan Local Police, August 10, 2011. This document establishes
      the agreement between CFSOCC-A and NTM-A/CSTC-A for use of ASFF to finance
      certain activities associated with the ALP. CFSOCC-A, in its role as Executive Agent for
      the ALP program, uses and accounts for ASSF in accordance with established statutes,
      policies, and procedures.

20.   MoI Logistics Management Directorate, “Process for the Management
      of Logistics,” January 6, 2009, (draft). This decree prescribes common
      procedures, formats, forms, and time standards for the logistics management processes of
      the MoI and movement of logistic information between supporting and supported
      organization/ activities of the ANP.

21.   MoI Medium Weapons Cipher, “Procedures used for ALP to request
      the employment of medium crew-served weapons,” July 17, 2011.
      Guidance published by the MoI that describes the process and procedures whereby an
      ALP unit can be issued heavier weapons, like the PKM machinegun.

22.   MoI, Office of the Senior Deputy of Security, Department of the
      Afghan Local Police, “Afghan Local Police Establishment
      Procedure,” Updated March 2011. Provides an updated copy of the pertinent
      policy and procedures used to establish the ALP program. This document provides a



                                             85
      description of the following: ALP organizational structure and command and control;
      recruiting criteria; tasks, leadership and management; pay, privileges, training and
      logistical support; weapons accountability, surveillance and technical support; and public
      Shuras, elders, and local council’s role.

23.   MoI Order Memo NO: (7158), Receipt #: (7134), “Afghan Local Police
      Establishment Procedure,” August-September 2010. This document is the
      MoI implementation order for the ALP program. It provides the procedure to organize
      and establish the ALP, based on Decree Number 3196, dated 16 August 2010, issued by
      the President of the Islamic Republic of Afghanistan.

24.   NTM-A/CSTC-A “Afghan Local Police (ALP) Ministerial Development
      Plan,” March 2011. Provides an overview and description of the ALP program and
      their capabilities and limitations within the Ministry of the Interior.

25.   UnderSecDef Memorandum, Comptroller, "Funding for Afghan Local
      Police (ALP) Recruiting Expenses," June 17, 2011. This guidance
      authorized use of ASFF monies for the ALP for salaries, consumable sustainment, and
      training items, including for project previously funded under Commander's Emergency
      Response Program (CERP).

26.   USFOR-A FRAGO 10-287, “Guidance for the Afghan Local Police
      Program," 5 September 2010, classified document. (Classified document.)




                                                86
Appendix D. Organizations Contacted and
Visited
We visited, contacted, or conducted interviews with officials (or former officials) from the
following NATO, U.S., and Afghan organizations:

United States
Department of Defense
       Former CFSOCC-A Commander

Afghanistan
   U.S. Central Command
       ISAF Deputy Chief of Staff for Operations and selected staff
       Deputy Commanding General–Support, USFOR-A
       Commander, CFSOCC-A, and selected staff
       Deputy Commander, NTM-A/CSTC-A and selected staff
       Deputy Commander-Police, NTM-A/CSTC-A
       Commander, IJC & Selected Staff Principals (ALP)
       Commander, RC and RSC North, Special Operations Liaison Element (SOPLE), Village
        Stability Coordination Center, TF Panther, 2 X ODA
       Commander, RC and RSC South, ALP Development Staff, SOPLE, SOTF, 2 X ODA
       Commander, RC and RSC Southwest, ALP Development Staff, SOPLE, UK and USMC
        conventional sites
       Commander, RC and RSC East, ALP Development Staff, VSCC, SOPLE, CJSOTF,
        SOTF-E, 2 X ODA, Army conventional site

Government of the Islamic Republic of Afghanistan
GIRoA Officials
       Provincial Governors (two)
       District Governors (five)

Ministry of Interior
       Deputy Minister of Interior
       Deputy Inspector General
       Director of ALP Program
       ANP Recruiting Officer
       Planning and Operations Officers
       Personnel and Training Officers


                                                87
   Logistics Officer
   Deputy Finance Officer
   Provincial Chiefs of Police in RCs North, Southwest, and East
   District Chiefs of Police in RCs North, South, Southwest, and East
   ALP Commanders/Leaders in RCs North, South, Southwest, and East




                                         88
89
90
91
92
93
94
95
96
97
98
99
100
101
102
103
104
105
106
107
108
109
110
111
112
113
114
115
116
117
118
119
Appendix F. Report Distribution
Department of State
U.S. Ambassador to Afghanistan
Assistant Secretary of State for Political-Military Affairs
Inspector General, Department of State

Office of the Secretary of Defense
Secretary of Defense
Deputy Secretary of Defense
Chairman of the Joint Chiefs of Staff
Under Secretary of Defense for Acquisition, Technology and Logistics (AT&L)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
Under Secretary of Defense, Personnel and Readiness
Deputy Assistant Secretary of Defense for Maintenance, Plans, and Programs, AT&L
Deputy Chief Financial Officer
Deputy Comptroller (Program/Budget)
Deputy Assistant Secretary of Defense, Afghanistan, Pakistan, and Central Asia
Deputy Assistant Secretary of Defense, Partnership Strategy and Stability Operations
Vice Chairman of the Joint Chiefs of Staff
Assistant Secretary of Defense (Legislative Affairs)
Assistant Secretary of Defense (Public Affairs)
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy
Director, Joint Staff
Director, Operations (J-3)
Director, Strategic Plans and Policy (J-5)

Department of the Army
Secretary of the Army
Assistant Secretary of the Army for Acquisition, Logistics, and Technology
Commander, U.S. Army Forces Command
Commander, U.S. Army Materiel Command
Chief, National Guard Bureau
Chief, U.S. Army Reserve
Commander/Chief of Engineers, U.S. Army Corps of Engineers
Commander, Afghanistan Engineer Division, U.S. Army Corps of Engineers
Auditor General, Department of the Army
Inspector General of the Army

Department of the Navy
Naval Inspector General

Department of the Air Force
Inspector General of the Air Force



                                                121
Combatant Commands
Commander, U.S. Central Command
     Commander, U.S. Forces-Afghanistan*

Other Defense Organizations
Commander, International Security Assistance Force/U.S. Forces–Afghanistan*
       Commander, International Security Assistance Force Joint Command*
       Commander, NATO Training Mission-Afghanistan/Combined Security Transition
                Command–Afghanistan*
       Commander, Coalition Forces Special Operations Component Command-Afghanistan*
Director, Defense Contract Management Agency
Director, Defense Intelligence Agency
Director, Joint Center for International Security Force Assistance

Other Non-Defense Federal Organizations
Special Inspector General for Afghanistan Reconstruction

Congressional Committees and Subcommittees, Chairman
and Ranking Minority Member
Senate Committee on Appropriations
       Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
       House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform

*Recipient of the draft report




                                             122
Special Plans & Operations
 Provide assessment oversight that addresses priority national security
 objectives to facilitate informed, timely decision-making by senior
 leaders of the DOD and the U.S. Congress.



 General Information
   Forward questions or comments concerning this assessment and report and other
   activities conducted by the Office of Special Plans & Operations to spo@dodig.mil

                      Deputy Inspector General for Special Plans & Operations
                            Department of Defense Inspector General
                                       400 0DUN &HQWHU Drive
                                    AlH[DnGULD, VA 22-0




                           Visit us at www.dodig.mil


   DEPARTMENT OF DEFENSE



   hot line                              make a difference
                                             800.424.9098
                                                             Report                        www.dodig.mil/hotline
                                                             Fraud, Waste, Mismanagement, Abuse of Authority
                                                             Suspected Threats to Homeland Security
   Defense Hotline,The Pentagon, Washington, DC 20301-1900   Unauthorized Disclosures of Classified Information
